<html>
<title> - STEM EDUCATION BEFORE HIGH SCHOOL: SHAPING OUR FUTURE SCIENCE, TECHNOLOGY, ENGINEERING AND MATH LEADERS OF TOMORROW BY INSPIRING OUR CHILDREN TODAY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                   STEM EDUCATION BEFORE HIGH SCHOOL:
                SHAPING OUR FUTURE SCIENCE, TECHNOLOGY,
                    ENGINEERING AND MATH LEADERS OF
                         TOMORROW BY INSPIRING
                           OUR CHILDREN TODAY

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 12, 2008

                               __________

                           Serial No. 110-101

                               __________

     Printed for the use of the Committee on Science and Technology












     Available via the World Wide Web: http://www.science.house.gov

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE

42-122 PS                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001
















                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           TOM FEENEY, Florida
LAURA RICHARDSON, California         RANDY NEUGEBAUER, Texas
PAUL KANJORSKI, Pennsylvania         BOB INGLIS, South Carolina
DARLENE HOOLEY, Oregon               DAVID G. REICHERT, Washington
STEVEN R. ROTHMAN, New Jersey        MICHAEL T. MCCAUL, Texas
JIM MATHESON, Utah                   MARIO DIAZ-BALART, Florida
MIKE ROSS, Arkansas                  PHIL GINGREY, Georgia
BEN CHANDLER, Kentucky               BRIAN P. BILBRAY, California
RUSS CARNAHAN, Missouri              ADRIAN SMITH, Nebraska
CHARLIE MELANCON, Louisiana          PAUL C. BROUN, Georgia
BARON P. HILL, Indiana               VACANCY
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio

























                            C O N T E N T S

                              May 12, 2008

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........    10
    Written Statement............................................    11

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................     8
    Written Statement............................................    10

Statement by Representative Mike Ross, Member, Committee on 
  Science and Technology, U.S. House of Representatives..........    12
    Written Statement............................................    14

                               Witnesses:

Dr. Cora B. Marrett, Assistant Director, Directorate for 
  Education and Human Resources, National Science Foundation 
  (NSF)
    Oral Statement...............................................    15
    Written Statement............................................    17
    Biography....................................................    21

Mr. James Henry Russell, Superintendent of Schools, Texarkana 
  Independent School District, Texarkana, Texas
    Oral Statement...............................................    22
    Written Statement............................................    24
    Biography....................................................    28

Dr. Rosanne Stripling, Provost and Vice President for Academic 
  Affairs, Texas A&M University-Texarkana, Texarkana, Texas
    Oral Statement...............................................    30
    Written Statement............................................    31

Mr. Mike Leherr, Plant Manager, Alcoa-Texarkana, Texarkana, Texas
    Oral Statement...............................................    37
    Written Statement............................................    38
    Biography....................................................    39

Mr. David Smedley, Science Educator, North Heights Junior High 
  School, Texarkana, Arkansas
    Oral Statement...............................................    40
    Written Statement............................................    42
    Biography....................................................    44

Discussion.......................................................    46
























 
    STEM EDUCATION BEFORE HIGH SCHOOL: SHAPING OUR FUTURE SCIENCE, 
 TECHNOLOGY, ENGINEERING AND MATH LEADERS OF TOMORROW BY INSPIRING OUR 
                             CHILDREN TODAY

                              ----------                              


                          MONDAY, MAY 12, 2008

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 1:17 p.m. At the 
Martha and Josh Morriss Mathematics and Engineering Elementary 
School, Texarkana, Texas, Hon. Bart Gordon [Chairman of the 
Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                         field hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                   STEM Education Before High School:

                Shaping Our Future Science, Technology,

                    Engineering and Math Leaders of

                         Tomorrow By Inspiring

                           Our Children Today

                          monday, may 12, 2008
                          1:00 p.m.-3:00 p.m.
                martha and josh morriss mathematics and
                     engineering elementary school
                            texarkana, texas

1. Purpose

    On Monday, May 12, 2008, the Science and Technology Committee will 
hold a field hearing in Texarkana, Texas, to receive testimony on 
efforts to engage students in math and science at an early age, to keep 
them interested throughout middle school and high school, and to 
translate that interest into rewarding careers that will be of benefit 
to the entire Nation from a federal, school district, university, 
industry and teacher perspective. Further, we will examine the efforts 
behind and reasons for the establishment of a STEM-based public 
elementary school and the progress that it is making with its students, 
which could serve as a model for the Nation.

2. Witnesses

<bullet>  Dr. Cora Marrett, Assistant Director for the Education and 
Human Resources Directorate, National Science Foundation (NSF), 
Washington, DC

<bullet>  Dr. Rosanne Stripling, Provost and Vice President for 
Academic Affairs, Texas A&M University-Texarkana, Texarkana, TX

<bullet>  Mr. James Henry Russell, Superintendent, Texarkana 
Independent School District, Texarkana, TX

<bullet>  Mr. David Smedley, Science Teacher, North Heights Junior High 
School, Texarkana, AR

<bullet>  Mr. Mike Leherr, Plant Manager, Alcoa-Texarkana, Texarkana, 
TX

3. Brief Overview

        <bullet>  A consensus exists that improving science, 
        technology, engineering, and mathematics (STEM) education 
        throughout the Nation is a necessary, if not sufficient, 
        condition for preserving our capacity for innovation and 
        discovery and for ensuring U.S. economic strength and 
        competitiveness in the international marketplace of the 21st 
        century. Many reports, including those from the Council on 
        Competitiveness, Business Roundtable, and the National Academy 
        of Sciences' Rising above the Gathering Storm,\1\ placed a 
        major emphasis on strengthening STEM education in the United 
        States to ensure that the Nation's workforce can compete 
        globally in high-tech, high-value industries, such as 
        information technology, biotechnology, semiconductor 
        manufacturing, and nanotechnology. The President addressed 
        these needs in his American Competitiveness Initiative and 
        Congress, likewise, in the America COMPETES Act, which is now 
        law (Public Law 110-69).
---------------------------------------------------------------------------
    \1\ Rising Above the Gathering Storm: Energizing and Employing 
America for a Brighter Economic Future, National Academies Press, 
Washington, D.C. (2006).

        <bullet>  Historically, NSF's mission has included supporting 
        and strengthening science and math education programs at all 
        levels. In the area of K-12, NSF carries out its mission by 
        funding a variety of science and math education activities, 
        including teacher training (both in-service and pre-service), 
        curriculum development, education research, and informal 
---------------------------------------------------------------------------
        education at museums and science centers.

        <bullet>  Critical transitions occur as students move from 
        elementary schools to middle schools, from middle schools to 
        high schools, and from high schools to post-secondary 
        education. International data show corresponding shifts in 
        students' achievement rankings internationally, where 
        performance of U.S. students relative to that of students 
        around the world generally drops from fourth grade to eighth 
        grade, and then drops further in high school. And, the 
        curriculum in mathematics and science may reflect significant 
        jumps in complexity and demand as these critical transitions 
        occur. For example, elementary school students who have been 
        studying concepts and procedures in the area of numbers 
        increasingly must meet the challenge of studying algebra in the 
        middle grades. A related consideration that comes with the 
        critical transitions is that students' interest in the STEM 
        fields, and their enthusiasm for mathematics and science, also 
        may decrease as they move from the elementary grades, to the 
        middle grades, and beyond. Teachers have enormous 
        responsibility to support students' growth and competency, 
        stimulate their interest and enthusiasm, and ensure that they 
        are prepared for assessments and higher level work in 
        subsequent grades.

        <bullet>  The Martha and Josh Morriss Mathematics and 
        Engineering Elementary School in Texarkana, Texas, is part of a 
        vertical aligned K-16 engineering education collaborative 
        between Texas A&M University-Texarkana and Texarkana 
        Independent School District. It provides mathematics and pre-
        engineering integrated curriculum and pre-engineering electives 
        for students in kindergarten through fifth grade. Students 
        graduating from the elementary school will be able move into an 
        advanced Math and Science program at Texas Middle School. This 
        school serves as a national model for K-16 collaboration in how 
        young children can become engaged in and educated for careers 
        in mathematics and engineering.

4. Background

K-12 Science and Math Education at the National Science Foundation
    Science and math education is a cornerstone of the historic mission 
of the National Science Foundation. The National Science Foundation Act 
of 1950, which established NSF, directed NSF to support and strengthen 
science and math education programs at all levels. NSF carries out its 
K-12 mission by supporting a variety of science and math education 
activities, including teacher training (both in-service and pre-
service), curriculum development, education research, and informal 
education at museums and science centers.
    Examples of NSF programs designed to improve teacher performance, 
enhance understanding of student retention of scientific content, and 
develop and assess curricula include the Centers for Learning and 
Teaching, which provide professional development opportunities for K-12 
teachers; the Advanced Learning Technologies program, which supports 
cognitive science research on the use of technology to enhance learning 
and teaching; and the Instructional Materials Development program, 
which supports the development of curriculum as well as research into 
the most effective means of teaching math and science material.
    In addition to these programs, other NSF education programs focused 
on improving K-12 education include the Math and Science Partnership 
(MSP) Program and the Robert Noyce Scholarship (Noyce) Program, both 
reauthorized as part of the America COMPETES Act. The MSP Program funds 
partnerships between universities and local school districts to 
strengthen the science and math content knowledge of K-12 
schoolteachers. The grants are awarded to support the creation of 
innovative reform programs that could be expanded to the State level if 
successful. The Robert Noyce Scholarship Program is designed to help 
recruit highly-qualified science and math teachers through grants to 
college and universities to give scholarships to science and math 
majors in return for their commitment to teach at the elementary or 
secondary school level. America COMPETES strengthened and expanded the 
Robert Noyce Teacher Scholarship Program to provide scholarships to 
students majoring in science, math or engineering who commit to 
teaching two years in return for each year of aid. The program provides 
money to colleges and universities both to award and administer the 
scholarships and to provide programs to help prepare the students for 
teaching. The expansion of this program was modeled on the UTEACH 
program at the University of Texas.

Texas A&M University-Texarkana and Texarkana Independent School 
        District Pre-K-16 Collabortive\2\
---------------------------------------------------------------------------
    \2\ TIDS-TAMU-T K-16 COLLABORATIVE MORRISS ELEMENTARY SCHOOL 
(http://www.tea.state.tx.us/p16/
council<INF>-</INF>mtg<INF>-</INF>attach/presentations/feb08/
feb08<INF>-</INF>regionalp16<INF>-</INF>texarkana.pdf)
---------------------------------------------------------------------------
    Texas A&M University-Texarkana and Texarkana Independent School 
District established a vertically aligned kindergarten-16 engineering 
education collaborative that will be executed in four stages: (1) a K-5 
public elementary school (Martha and Josh Morriss Mathematics & 
Engineering Elementary School) that provides a mathematics and pre-
engineering integrated curriculum, ``Engineering Encounters'' 
(culminating projects), and pre-engineering electives (i.e., circuitry, 
forces and gears) at each grade level (opened fall 2007); (2) a pre-
engineering ``school-within-a-school'' at Texas Middle school (planned 
for fall 2008); (3) selected mathematics and science courses with pre-
engineering content enrichment and dual credit engineering courses at 
Texas High School (fall 2006); and (4) a choice of three engineering 
related programs of study at A&M-Texarkana: BS in Computer and 
Information Sciences (fall 2005), BS in Electrical Engineering (planned 
for fall 2008), and BS in Mechanical Engineering (planned for fall 
2010).
    The overarching goal of the engineering collaborative is to 
increase the quantity and quality of United States grown and educated 
engineers. The goal will be accomplished by exposing young children to 
exciting mathematics and engineering concepts and providing a rigorous 
and seamless pre-engineering and engineering education curriculum 
through the completion of a baccalaureate degree. A growing gap between 
the supply and demand for professionals in engineering and mathematics 
careers has alerted stakeholders across the Nation. The regional need 
for more engineers was documented in the late 1990s when Texarkana area 
businesses (e.g., International Paper, Domtar Paper Mill, and Alcoa) 
identified the need for an engineering program at A&M-Texarkana as the 
number one community priority. Their expressed need has been manifested 
in contributions of almost $7 million to date for an engineering degree 
program at the university.
    Although the effectiveness of a K-16 engineering collaborative as a 
means of ameliorating the supply and demand gap of engineers is a very 
logical, research-based approach, a comprehensive search has not 
identified another partnership of this kind across the United States. 
The Texas A&M University-Texarkana ISD K-16 engineering collaborative 
is a unique, sustainable, and replicable model that sets a gold 
standard for how public schools and universities can maximize the 
investment return on human and financial resources to attain an 
important and shared goal--to ``close the gap'' between participation 
and success in secondary and higher education in a manner that 
effectively addresses a growing professional and career demand if the 
United States is to continue its position as a global power--
engineering and mathematics.

The Martha and Josh Morriss Mathematics and Engineering Elementary 
        School\3\
---------------------------------------------------------------------------
    \3\ Ibid.
---------------------------------------------------------------------------
    The Martha and Josh Morriss Mathematics and Engineering Elementary 
School, serving children in grades K-5, is the eighth elementary school 
in Texarkana Independent School District opened in the fall of 2007. 
The school does not have an attendance zone, and any elementary-aged 
student living in the State of Texas is eligible to apply for 
enrollment on a first-come basis without charge. Once a student has 
been accepted for enrollment, certain academic and behavior standards 
are required for continued attendance. The school is designed for 
approximately 396 students (three sections each in grades K-5). As of 
September 30, 2006--eleven months prior to the opening of the new 
school--100 percent of the available positions at grades K-4 and 89 
percent at grade 5 were committed, with 49 percent of the student 
enrollment to date being female. A waiting list has been established 
for most of the primary grades, and over 80 kindergarten applications 
for the 2008-2009 and 2009-2010 academic years have been submitted.
    The floor plan and architectural design of the new school 
facilitates the delivery of an inquiry-based mathematics and 
engineering integrated curriculum for all subjects in grades K-5, 
including fine arts, foreign language, health and physical education as 
well as the four core subject areas. The mathematics and engineering 
embedded Texas Essential Knowledge and Skills (TEKS) curriculum is 
enhanced by ``engineering encounters''--cross-grade level, theme-based 
authentic assessment projects completed and presented by students to 
the public each six-weeks (see Examples). The K-6 grade mathematics and 
science TEKS is accelerated into grades K-5 (and grades 7 and 8 content 
into the 6th grade at middle school), allowing students to take Algebra 
I and advanced science in grade 7 to provide opportunities for advanced 
mathematics, science, and engineering courses in high school. Further, 
engineering electives (content beyond the TEKS) will be taught at each 
grade level. Extended school-year enrichment activities such as a two-
week summer Circuitry Camp provide a ``value added'' element to 
students' learning.
    Texas A&M University-Texarkana Arts and Sciences and Education 
faculty assist the Texarkana ISD curriculum personnel and teachers to 
design the mathematics and engineering integrated curriculum and 
electives. University faculty develop content and pedagogy courses to 
train the elementary teachers to deliver the curriculum using effective 
teaching strategies that promote mastery of the curriculum by all 
students. All of the Morriss Elementary teachers are required to obtain 
a Masters Degree and either the Texas Master Mathematics Teacher 
Certification or Texas Master Technology Teacher Certification through 
preparation programs offered at A&M-Texarkana.
    The Martha and Josh Morriss Mathematics and Engineering Elementary 
School has become a national model for K-16 collaboration in how young 
children can become engaged in and educated for careers in mathematics 
and engineering.

5. Questions for the Witnesses

Dr. Cora Marrett

        <bullet>  What evidence is available from NSF-funded projects 
        to help us better understand how students develop interests in 
        STEM fields in the pre-K through 12 years, and how can those 
        interests be sustained across the high school to post-secondary 
        education transition? Are there model programs or approaches to 
        curriculum and instruction that have demonstrated how to engage 
        students successfully in STEM areas and that lead to choice of 
        STEM careers? What is the role of out-of-school learning in 
        encouraging STEM career participation? What factors affect 
        students' choice of STEM majors or programs and their retention 
        at the post-secondary level?

        <bullet>  How do NSF programs support the improvement of the 
        teaching and learning of the STEM disciplines in the pre-K 
        through 12 years? What programs are available to improve 
        teachers' knowledge and abilities, and what does research tell 
        us about the best ways to enable teachers' effectiveness in 
        promoting learning? What types of programs and models for STEM 
        teacher preparation, induction, and professional development 
        show the most promise for supporting STEM teachers' learning, 
        and what can be learned from the implementation of such 
        programs and models?

        <bullet>  What instructional tools, resources, materials, and 
        technologies has NSF supported to enable STEM learning? Under 
        what conditions, and for whom, are such resources for learning 
        most effective? Does research provide insight into what kinds 
        of instructional materials and tools are most useful in 
        supporting learning at various levels, and for various groups 
        of learners?

Dr. Rosanne Stripling

        <bullet>  How was Texas A&M-Texarkana involved with the 
        creation of the Martha and Josh Morriss Mathematics and 
        Engineering Elementary School? What other pre-K through 12 
        schools does Texas A&M-Texarkana support and how? Please 
        describe any other work or partnerships that Texas A&M-
        Texarkana is doing with regards to STEM education for pre-K 
        through 12 schools.

        <bullet>  What are the major problems that limit the 
        performance of students and teachers, and what do you feel is 
        the single, most important step that the Federal Government 
        should take to improve pre-K through 12 grade math and science 
        education? What involvement have you had with math and science 
        education programs at the National Science Foundation or other 
        federal agencies as well as those in the State of Texas? What 
        are the most important and effective components of these 
        programs?

        <bullet>  How can we attract, educate and retain the critical 
        mass of talent necessary to keep the State of Texas--and the 
        country as a whole--at the forefront of research, development 
        and ground-breaking advances in science and technology? In 
        addition to providing a technically literate workforce, why is 
        it important to improve public support and understanding of 
        math and science?

        <bullet>  How can we ensure that we provide sufficient 
        opportunities to allow students and researchers, educators and 
        employees to become and then remain current and competitive in 
        our rapidly evolving world?

Mr. James Henry Russell

        <bullet>  What is the overall state of STEM education in 
        Texarkana? Why is it important for all students to achieve 
        proficiency in these subjects? What was the motivation behind 
        establishing the Martha and Josh Morriss Mathematics and 
        Engineering Elementary School? What role did parents, the 
        community and local businesses play in the establishment of 
        this school? Is there a plan in place to keep these students 
        motivated in STEM subjects as they make the transition to 
        middle school and on to high school?

        <bullet>  What are the major problems that limit the 
        performance of students and teachers, and what do you feel is 
        the single, most important step that the Federal Government 
        should take to improve K-12th grade math and science education? 
        What involvement have you had with math and science education 
        programs at the National Science Foundation or other federal 
        agencies as well as those in the State of Texas? What are the 
        most important and effective components of these programs?

        <bullet>  How can we grow and educate, attract and retain the 
        best and brightest scientists and engineering students? What do 
        you feel is the single, most important step that the Federal 
        Government should take to improve pre-K through 12 STEM 
        education?

Mr. David Smedley

        <bullet>  What are the major problems that limit the 
        performance of students and teachers, and what do you feel is 
        the single, most important step that the Federal Government 
        should take to improve K-12th grade math and science education? 
        What involvement have you had with math and science education 
        programs at the National Science Foundation or other federal 
        agencies as well as those in the State of Arkansas? What are 
        the most important and effective components of these programs?

        <bullet>  How can we spark a greater student interest in math 
        and science education? What can we do to ensure that student 
        interest in math and science does not wane as they progress 
        through our formal system of education? Specifically, how do 
        you keep your junior high students motivated and excited about 
        STEM?

        <bullet>  What challenges do you face in improving student 
        achievement in math and science education? How can parents, 
        businesses, the community, and the government better support 
        you in your efforts to raise student proficiency in STEM?

        <bullet>  What elements of your pre-service or in-service 
        training have been most helpful in meeting the daily demands of 
        working with students, developing innovative classroom 
        strategies, and delivering content-rich instruction to students 
        of all levels and abilities? As a professional teacher, what 
        partnerships or collaborations with local colleges or 
        universities have been most helpful to you in terms of access 
        to materials or professional development?

Mr. Michael Leherr

        <bullet>  Why did Alcoa choose to become involved with the 
        creation of the Martha and Josh Morriss Mathematics and 
        Engineering Elementary School? What other schools does Alcoa 
        support and how? Why is it important for Alcoa to be interested 
        in pre-K through 12 education?

        <bullet>  How do we avoid a disconnect between the jobs we want 
        to keep in the U.S. and our workforce's ability to perform 
        those jobs? How is Alcoa working with pre-K through 12 schools 
        as well as colleges, universities and training programs to 
        avoid that disconnect?

        <bullet>  Please describe what Alcoa Texarkana does? What 
        percentage of your workforce has a STEM background? Are you 
        able to recruit locally for these positions and if not, why 
        not? How do you work with the local colleges and universities 
        to support your workforce? If you have mentoring programs in 
        place to encourage your engineers to help out in STEM classes 
        at the pre-K through 12 levels or even in college courses, 
        please provide information on these programs or similar 
        activities Alcoa supports.
    Chairman Gordon. Good afternoon. I'm pleased to be here in 
the district for this field hearing.
    I have told Congressman Hall this before, but my 
grandfather used to tell me--I'm from Tennessee. My grandfather 
used to tell me every time we met the population increased, so 
I'm happy to have some of my relatives from Texas here today. 
I'm very pleased to be here, folks, with Ralph Hall and Mike 
Ross. I think Texarkana is well served by having a Democrat, a 
Republican, a Texan and a young fellow from Arkansas work 
together. That's how you get things done. We try and do the 
same thing on the Science and Technology Committee in 
Washington. We are something of an anomaly. I am very fortunate 
to have Ralph Hall as a Ranking Member.
    Over the last year and a half we've passed out over 30 
bills, all of which have been bipartisan, all but one 
unanimous, including the Pete's bill that I think is a type of 
role model that I hope we can show the rest of Congress. We'll 
all be better off to do that.
    Sitting next to Ralph, he's been telling me for the last 
year about this school and this district. We're all proud of 
our own district, but he keeps saying there really is something 
special about the Morriss Elementary School and wanted me to 
come down and see it. It's been a delight to be here. 
Certainly, you have a wonderful facility, but really it's more 
than just the building. It's the attitude of the children. I 
hope the model that you have established here can be an 
incubator that we can roll out to other and scale out all 
across the country.
    I'm looking forward to going over some time to Mike's to 
the Arkansas school for math and science and arts. I've heard 
Mike tell this a couple of times, but he was in the State 
Senate when this school was created. He had the legislation. He 
thought it was a pretty good idea until his daughter was 
accepted and moved away. He didn't think it was quite as good, 
but I think he's acclimated himself, and his son will go there 
soon. So, that's another good model that we want to look for.
    So, I can say without qualms that I would not be Chairman 
of this committee if it wasn't for Ralph Hall. So, at this time 
I would like to pass the gavel to my friend Congressman Hall 
for the remainder of this hearing.
    Mr. Hall. [presiding.] I thank you, and how long are you 
going to allow me to keep this gavel? I'll be back in 
Washington with you Tuesday morning, I'll give it back to you.
    Of course I'm honored to be here and to have so many here 
for such a worthy cause and for something that we're all so 
proud of, to attract these men and women of industry throughout 
the United States and to have them here. And one in particular 
that's with us is, he just spoke to a very fine group, Mr. Tom 
Pickens. I ask that he be granted the right to be at the table 
and to give an opening five-minute speech as others do and to 
give answers to questions. Any objection? The Chair hears none.
    As you all do up there in Washington, I now recognize 
myself for five minutes for an opening statement. I wanted to 
first thank our astronaut who has been wonderful with visiting 
with the youngsters today. Lee Archambault has been to space. 
He flew, I think, for 5.8 million miles in a 14-day period as 
the pilot of the Atlantis Shuttle mission. He's going back. He 
has flown I think over 4,000 flight hours on more than 30 
different aircrafts. He has been great with the youngsters 
today with three different groups of classes. He's answered 
questions. He brought them up to date on robotics. As they have 
been working on them in the classroom here, he showed how they 
used the work that they've been doing, that they were being 
taught at that time in space because he was a part of the crew 
that went up to repair a space station, and they used a robot 
to take a piece of the station over and put it way out to the 
end of the station in space there. These youngsters saw their 
work in action there, and I think that was great for them.
    So, I want to officially welcome you, Chairman Gordon, to 
the Fourth District of Texas and thank you for making the 
journey. I think we can both agree that what we've experienced 
this morning was pretty impressive.
    Mr. Ross, I'm going to have more to say about you in just a 
minute, but I'm very glad that you joined us. I can't be 
granted enough time to say good things about you, and I have to 
because he chairs about half of the sessions in Congress now. I 
have to stand up, and he says ``What purpose is the gentleman 
from Texas standing?'' I have to tell him and beg him to let me 
speak for five minutes. If I'm real nice to him in front of his 
own folks he ought to give me ten minutes, don't you think?
    Seems like it was only yesterday that I was here in the 
dedication celebration of the Martha and Josh Morriss 
Mathematics and Engineering Elementary School. We've had them 
this morning. We are so proud of them. They are a giving 
family, a successful family, a caring family, and we're 
benefiting from their generosity. I know they are proud of what 
they have established here. It's good to see so many of my 
Texarkana County friends in the audience including both Martha 
and Josh who donated the land for the school and Scott Bruner, 
President of the Texarkana Independent School District Board of 
Trustees. Thank you.
    The collaboration between Texas Independent School District 
and Texas A&M University Texarkana to make the Morriss School a 
reality is one that can and should be replicated. The concept 
of starting a STEM program that a student can follow from 
kindergarten all the way through a baccalaureate degree and all 
in their own hometown is very positive. It's good to see that 
local businesses like Alcoa and others recognize the value in 
supporting such an effort.
    The Texarkana collaboration is a slightly different 
approach than what we created in America COMPETES, but we never 
intended for that to be the only solution. This nation's full 
of good visionary ideas, and the area of STEM education is no 
exception. I look forward to hearing from Dr. Marrett about 
some of the other ideas NSF is funding on the federal level as 
well as how Mr. Smedley is motivating some of his own students 
in Arkansas. Inspiring our children about math and science at 
an early age is important. Keeping them enthusiastic as they 
progress through middle school and high school and into college 
is critical.
    As I said at the school dedication last September, 
advancing STEM education must be a national priority if we are 
to prepare our students for 21st century jobs and keep pace 
with countries like China and India who are graduating larger 
number of STEM students. They may be graduating more, but the 
quality of ours remains unsurpassed in this world. America has 
always been the leader in cutting-edge technology and 
innovation, and we have to do all we can do to insure a strong 
footing as a global economic leader. I appreciate all of you 
witnesses being here today. I know it took you time to get here 
and took you time to prepare for being here. Thank you for 
giving us the time that you're giving. I look forward to your 
testimony.
    At this time I turn to my colleague Mr. Gordon, the 
distinguished Chairman of the Committee, and recognize him for 
any other opening remarks he might want to make.
    Chairman Gordon. Thank you, Mr. Hall.
    [The prepared statement of Mr. Hall follows:]
           Prepared Statement of Representative Ralph M. Hall
    First, I want to officially welcome you, Chairman Gordon, to the 
fourth district of Texas and to thank you for making the journey and 
spending the entire day with us. I believe we can both agree that what 
we experienced this morning was pretty impressive.
    It seems like it was only yesterday that I was here for the 
dedication celebration for the Martha and Josh Morriss Mathematics and 
Engineering Elementary School. I know these folks are proud of what 
they have established here, and it's good to see so many of my 
Texarkana friends in the audience, including Martha and Josh Morris, 
who donated the land for the school, and Scott Bruner, President of the 
Texarkana Independent School District (TISD) Board of Trustees.
    The collaboration between TISD and Texas A&M University-Texarkana 
to make the Morriss School a reality is one that can and should be 
replicated. The concept of starting a STEM program that a student can 
follow from kindergarten all the way through a baccalaureate degree, 
and all in their home town, is very positive. It is good to see that 
local businesses, like Alcoa, recognize the value in supporting such an 
effort.
    The Texarkana collaboration is a slightly different approach than 
what we created in America COMPETES, but we never intended for that to 
be the only solution. This nation is full of good visionary ideas, and 
the area of STEM education is no exception. I look forward to hearing 
from Dr. Marrett about some of the other ideas NSF is funding on the 
federal level, as well as how Mr. Smedley is motivating his own 
students in Arkansas. Inspiring our children about math and science at 
an early age is important. Keeping them enthusiastic as they progress 
through middle school and high school and into college is critical.
    As I said at the school dedication last September, advancing STEM 
education must be a national priority if we are to prepare our students 
for 21st century jobs and keep pace with countries like China and India 
who are graduating larger numbers of STEM students. They may be 
graduating more, but the quality of ours remains unsurpassed in the 
world. America has always been the leader in cutting edge technology 
and innovation--and we must do all we can to ensure our strong footing 
as a global economic leader.
    I appreciate all of our witnesses being here today and look forward 
to your testimony.

    Chairman Gordon. Let me concur with your remarks. Also, I 
thank the witnesses here. Colonel Armstrong, you might be in a 
situation some time in the future, some of you probably know 
that Congressman Hall was a fighter pilot during World War II, 
and they had a reunion in Washington with some of the other 
folks that he flew with at that time. They were talking there 
and I overheard them, and one of them said it sure was windy, 
and the next one says, no, it's Thursday. And Ralph said I'm 
thirsty too. Let's go out and get a beer.
    In all seriousness, this is a very important program for us 
to learn from. There is six and a half billion people in the 
world, half of which make less than two dollars a day. We do 
not want to compete in that regard. If we do, my seven-year-old 
daughter could be the first generation of Americans to inherit 
a national standard of living less than their parents. So, what 
we've got to be able to do is we've got to make 20 or 30 or 50 
widgets for every one they're making in China and India and 
elsewhere. To do that, we have to work at a higher skill level, 
whether you're a high school graduate or junior college or a 
college graduate. And that means you have to have a background 
in STEM, and we're not doing well in that.
    Here in the United States among the OECD city countries, 
those of industrialized countries in recent scores we were 21st 
out of 30 in science and 25th out of 30 in math. That's not 
what we're used to in this country, and we have to do better, 
which means we've got to look at the type of programs here at 
the Morriss Elementary and scale that out. I'm anxious to learn 
more about how you got the vision, how you enacted it, and how 
we can take that to other places. So, thank you, Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman.
    [The prepared statement of Chairman Gordon follows:]
               Prepared Statement of Chairman Bart Gordon
    Good afternoon. It is with great pleasure that I welcome my fellow 
Committee Members and our distinguished panel of experts to the Martha 
and Josh Morriss Mathematics and Engineering Elementary School, here in 
Texarkana, for what will undoubtedly be a valuable discussion on STEM 
education before high school.
    Last August, Congress passed and the President signed into law the 
America COMPETES Act. A response to the 2005 National Academies' report 
Rising Above the Gathering Storm, and supported by a wide range of U.S. 
industries, universities, and science organizations, COMPETES seeks to 
ensure U.S. students, teachers, businesses, and workers will continue 
leading the world in science, innovation, research, and technology.
    As we all know, the global marketplace continues to become more 
competitive. The fact of the matter is, our country cannot and should 
not compete with the rest of the world on wages when half of the 
world's workers earn less than two dollars a day. Our country needs to 
compete at a higher level--with better skills and higher productivity.
    But today, America is falling behind other countries in educating 
our kids in STEM fields, and American students continue to score below 
average on math and science tests. According to the latest OECD Program 
for International Students Assessment, or PISA, students in the U.S. 
ranked 25th out of 30 developed countries in math and 21st out of 30 
developed countries in science.
    The America COMPETES Act seeks to reverse this trend and ensure not 
only that our nation will produce the world's leading scientists and 
engineers but also that all students will have a strong grounding in 
math and science and are prepared for technical jobs in every sector of 
the economy.
    I look forward to hearing testimony today from our witnesses on 
this subject. Having had the opportunity today to tour the Martha and 
Josh Morriss Mathematics and Engineering Elementary school I look 
forward to learning more about its establishment as a STEM-based public 
elementary school, and the progress it is making with its Pre-K through 
12th grade students here in Texarkana.

    Mr. Hall. At this time, I recognize Mr. Ross who shares 
Texarkana with me; we work well together. He's a Democrat, and 
I'm a Republican, but we put aside all those things when 
something for the good of this city or good of Bowie County or 
for the good of any part of Arkansas. My mother is from Cave 
City, Arkansas. My Administrative Assistant Janet Poppleton. 
Where are you, Janet? Stand up. She's the head of the Fourth 
Congressional District in my office in Washington and the 
offices here in Texas. I'm very proud to have her and very 
proud to have Marjorie and Eric. Thank you for what you do here 
for me in Texarkana.
    Mr. Ross is the Congressman of District 4 over in Arkansas. 
Let me tell you a little about him. He presides more often 
probably than anyone else up there other than the Speaker 
herself. It seems that any time there is really a tough 
situation or anything that's agonizing, I look up there and she 
has Mike in that chair, and there's some reason for it. It's 
because he's very good at it. He's very fair, and he makes 
things happen.
    So, Mike, here in the presence of your people, you grew up 
here, you went to school here, highly recognized, highly 
appreciated here, and I say to you personally I'm honored to 
get to work with you, and I'm always proud when I see you in 
the chair. Of course, I'll be more proud when the situation 
changes up there and maybe I'm the Chairman and Bart's the 
Ranking Member, but, you know the facts of life are that one of 
these days, the status we're in, the situation we find 
ourselves, the attitude that other people of the world have 
about the United States of America, some things are going to 
have to change.
    That means we're going to have to forget we're Republicans 
or Democrats, liberals or conservatives, whatever we might be 
and remember that we're Americans, and put those youngsters 
first that we saw this morning, that our astronaut engaged in 
and gave his time to this morning. If he's still here, let me 
have him stand up again. Lee, please stand up here for us.
    He is going back in just a couple, three or four months, 
and I believe every student he talked to today is going to 
follow him with their interest and with their prayers. When you 
have to leave, Lee, we understand you have a flight at 3:00, 
and we know when you get up and walk out it's not because the 
Chairman here said something you didn't like. It's because you 
have to catch that airplane. We honor you for it. You've helped 
us more than you know. God bless you and thank you.
    I just practically said everything that Mike Ross wrote out 
for me. No, it was from my heart, and I'm honored to recognize 
the Congressman for as long as you want. Normally, we ask you 
to hold it down to five minutes.
    Mr. Ross. Normally we're not in Texarkana, right? I'll be 
brief. Thank you Congressman Hall for that generous 
introduction. I've got to tell you that Ralph and I have kind 
of a special relationship. He may be a Republican and I may be 
a conservative Democrat, but we work together. Quite frankly, 
if we had more folks doing that in Washington, we'd be getting 
a lot more done for the American people.
    Ralph and I not only share Texarkana but we're also on the 
Science Committee together as well as the Energy and Commerce 
Committee together. In fact, Chairman Gordon is also on the 
Energy and Commerce Committee. We work very close together on a 
lot of issues, and I want to thank the Chairman for making the 
trip, the gentleman from Tennessee for making the trip and 
being here with us today in Texarkana.
    I was explaining to Chairman Gordon a little bit about how 
Texarkana operates. You know, you get on State Line Avenue and 
you head south and everybody on the right hand side of the road 
votes for Ralph and buy lottery tickets, and everybody on the 
left hand side of the road can vote for me and buy whiskey, and 
you can't do either one on the other side of the road. That was 
the best way I knew how to explain the twin cities that we have 
here, but this is a special place for me.
    I was born here. I met my wife while we both were attending 
Texarkana Community College. She is from here, from the Texas 
side. We were married here. While I represent 150 towns in 
nearly half the state, this is like home. We live just up the 
road in Preston, Arkansas. Chairman Gordon, when you live in a 
small town like I do, you come to Texarkana to either have a 
baby or see a movie, and we've done both. We've done the latter 
more than we've done the former. My son Alex was born here May 
14, 1992. Y'all can do the math on that and quickly figure out 
that this Thursday is not a day I will be looking forward to; 
he will be 16.
    Also, I have a close tie here in that my Chief of Staff in 
my Washington office grew up here, was educated here in the 
Texarkana/Arkansas Public School system and is a Texarkana 
native. Chairman Gordon invited me to be part of an official 
delegation back in January to travel to the South Pole, a place 
that only 35,000 people have ever been. After I completed that 
I felt like an astronaut, and Gabby Gifford who is a Member of 
Congress is actually married to an astronaut. I was sharing 
with her about my experience and how it took 60 hours to get 
there. You literally feel like you're on another planet. She 
went home and discussed that with her astronaut husband. I said 
what did he say. She said to tell you it doesn't take 60 hours 
to get to the places that I go.
    One of the reasons I went there is I came back and I wrote 
a letter to every science teacher in my district giving them 
websites and other information trying to encourage them to 
encourage their young people to get involved in the maths and 
sciences. The reason is quite simple. You know, when President 
Kennedy set out to put a man on the Moon, in today's dollars we 
invested 90 billion. We did a lot more than put a man on the 
Moon. We grew a new generation of innovators in this country 
that have gone on to create a lot of technologies that we're 
now beginning to take for granted. I believe it is past time 
for us to grow a new generation of innovators in this country 
that can create the jobs of the future that can allow us to 
reduce our dependence on foreign oil and become more energy 
independent on home-grown fuels. I believe one of the ways to 
do that is to focus once again on the maths and sciences. 
That's why it is so fitting that today we are here at the 
Martha and Josh Morriss Mathematics and Engineering Elementary 
School.
    I see some folks from the Morriss family here. I want to 
thank y'all for your commitment to the maths, sciences and 
engineering and the great things that you are doing here. For 
the sake of--just so the Chairman can get an idea, it's 
probably not as many as I'd want, if you live on the Arkansas 
side, if you'll stand up. We want to recognize those who have 
made a trip to be a part of this today.
    Chairman Gordon. Ask if they bought a lottery ticket while 
they're here.
    Mr. Ross. Brittany Esterson is a former member of the 
Arkansas Highway Commission and a dear friend, and Steve 
Harrelson. Stand up, Steve. Steve is a State Representative for 
the Arkansas side and the majority leader in the State House of 
Representatives in the Arkansas. We're delighted to have him 
with us today. With that, Mr. Chairman, I'll submit my written 
statement for the record since I got a little carried away. In 
the sake of time I'll submit my written statement for the 
record and give back the balance of my time.
    Mr. Hall. Thank you. They will be of record. Without 
objection they will be put to the record.
    [The prepared statement of Mr. Ross follows:]
             Prepared Statement of Representative Mike Ross
    I would like to first thank Chairman Gordon and Ranking Member Hall 
for holding today's hearing and all of the witnesses who have come 
today to discuss Science, Technology, Engineering, and Mathematics 
education, also known as STEM education. I would also like to thank all 
of you for attending today and for your service and dedication to our 
children's education. It is an honor to be here to discuss this 
important topic and I am hopeful that today's hearing can provide a 
forum to discuss ways that we can work together to encourage our youth 
to pursue these fields of study.
    As the son of two public school educators and the father of two 
children attending public schools and universities, I have seen first 
hand how important our education system is and I strongly believe that 
providing America's children with a world class public education is 
critical to our nation's future. Decades ago when President Kennedy 
worked to put a man on the Moon, our nation's investment in research, 
technology, and education was unprecedented. This resulted in raising a 
new generation of innovators. I believe that we can do that again by 
supporting and encouraging major investments in STEM education. Today's 
students will be tomorrow's innovators, which will help strengthen our 
economy, create new jobs here at home, and help America compete in this 
new global economy.
    STEM education is responsible for our nation's technologically 
proficient workers, as well as our scientists and engineers, who will 
keep our nation on the cutting edge. As a member of the House Science 
and Technology Committee and the House STEM Education Caucus, I am 
personally involved with these issues on a daily basis. However, I am 
proud to help host this hearing today to foster more discussion on the 
local level about STEM Education and the possibilities that it can 
bring.
    As many of you know, our nation's future competitiveness in the 
global economy depends upon the ability of our schools to prepare 
students in mathematics and the sciences and I am hopeful that today's 
hearing can help us determine the best ways to shape and inspire those 
leaders of tomorrow. Again, thank you all for coming today and for 
participating in this important discussion.

    Mr. Hall. Mr. Chairman, and also Mike, I ask unanimous 
consent that Tom Pickens be added to the group who will give 
testimony. We will not ask him to give a five-minute opening 
statement as the others will because he just made a good 15- or 
20-minute speech to a group at lunch. So we'll waive that for 
you, Tom.
    Introducing those of you who are going to give us 
testimony, I've already thanked you for it. Dr. Cora Marrett is 
Assistant Director for the Education Human Resources 
Directorate at the National Science Foundation. To have someone 
of your status to come here for this today, Dr. Marrett, I 
appreciate you making the trip from Washington. Go back up 
there and get them all straightened out. We're very honored to 
have you here. We look forward to your testimony.
    Dr. Rosanne Stripling is Provost of Texas A&M University of 
Texarkana. She and her husband, Dr. Larry Sullivan, who is the 
former Superintendent and now City Manager, he and I have had a 
lot of talks about him being a City Manager. I described to him 
what a city manager was, how they were like a B-17 rear gunner 
was when they flew over Germany. They were removed--the gunnery 
was removed after every flight. I hope that this city manager 
isn't like a lot of other city managers, that he gets moved 
after every thrust.
    We have a super City Manager. He's doing a good job. The 
city ought to really be proud of him and thankful to him. He 
led up to the provisions that we are enjoying here today and 
the youngsters that are being educated.
    I thank Dr. Stripling and her husband Dr. Larry Sullivan 
who served again as City Manager, worked together to create the 
vision for K-12 STEM education, and were very instrumental in 
helping to bring all this to fruition, and we thank you and 
look forward to your testimony.
    Mr. James Henry Russell, Superintendent for Texarkana 
Independent School District, is also doing a tremendous job. We 
look forward to him giving us the same leadership that he took 
over. We are honored to have you there.
    Dr. David Smedley is a science teacher at North Heights 
Junior High School on the other side of the state line. I 
understand North Heights is a NASA Explorer School which ties 
in nicely with our visit this morning. We thank you and 
appreciate you.
    Mr. Michael Leherr is the Plant Manager for Alcoa which I 
think is the largest local employer in Texarkana; very generous 
with the school district and with other worthwhile projects in 
this area. We're thankful to have you as one of ours.
    As our witnesses know and have been told, spoken testimony 
is limited to five minutes each. We're not going to get the 
hook at you if you go five and a half minutes or fuss at you. 
We sure won't fuss if you only use three minutes. Each of the 
Committee Members will have five minutes each to ask questions, 
so we'll start with Dr. Marrett.

     STATEMENT OF DR. CORA B. MARRETT, ASSISTANT DIRECTOR, 
DIRECTORATE FOR EDUCATION AND HUMAN RESOURCES, NATIONAL SCIENCE 
                        FOUNDATION (NSF)

    Dr. Marrett. Thank you very much. Thank you Ranking Member 
Hall, Chairman Gordon and Representative Ross for holding this 
hearing and inviting me to participate.
    I do so on behalf of the National Science Foundation. As 
you know, this federal agency, NSF, strives to promote 
knowledge about learning in science, technology, engineering 
and mathematics or STEM and strives to support interventions 
that build on the best of the knowledge.
    Your legislative actions enrich the portfolio of NSF, as do 
the activities of the people I am pleased to join with you 
today here in Texarkana.
    The emphasis of the hearing really reflects three concerns: 
student interest in science technology, engineering and 
mathematics (STEM); the teaching corps for STEM education; and 
resources for that education. But, in fact, the three are 
interrelated. For student interest alone does not shape 
achievement and career choices. Experiences with teachers 
matter significantly, but mere entry into teaching cannot 
guarantee teaching excellence.
    First rate professional development programs are essential, 
but professional development programs in the absence of well-
defined and well designed tools and resources are insufficient.
    With reference to the three themes, the three concerns, I 
can only introduce today some of the evidence that supports the 
conclusions I just described about student interest, 
professional development, and tools for learning. Let me note 
one bit of evidence, however, that comes from the National 
Longitudinal Studies of American Youth or LSAY. This is a 
project that NSF first supported in 1989, and it sheds light on 
the issue of student interest.
    There is a slide here that shows some results of this study 
that has, in fact, followed students for some time. This 
particular slide shows that in general, students are no more 
likely to like or dislike science and mathematics than they are 
their other subjects. In fact, that's what these scores all 
represent. They are basically the same across all of the 
disciplines. This is for students in the eighth, tenth and 
twelfth grade as the slide indicates.
    The LSAY, though, has also followed students into their 
college years. Consider the results for students who were 
traced from the time they were sophomores into their college 
years. These are students who were asked in the tenth grade 
about whether they had some interest in science, no interest in 
science, all the way up to liking science and the extent of 
their interest. Those who expressed the highest interest in 
science, those receiving a score of four were, in fact, more 
likely to choose majors in the STEM areas in college than were 
other students.
    But what is quite interesting is that few of the students 
in any of the interest groups were inclined to major in the 
sciences. This is a part of the evidence that attitudes alone 
do not shape career trajectories. There are things in addition 
that must be considered.
    This leads us, then, into the importance that teachers and 
teaching must have. In fact, the findings on teachers have 
redirected our attention away from the attributes of teachers 
to the teaching conditions that affect student learning. We are 
now much more concerned about how and what students learn than 
simply about the background of teachers.
    Let me give just one example from a study. This is a study 
the Foundation has supported, Learning Mathematics for Teaching 
or LMT. The study developed an instrument to measure the 
knowledge and skills of teachers. It then measured the 
performance in mathematics of the students of those teachers. 
The outcome: the higher the performance of the teachers on that 
particular test, the better the scores of the students on the 
test that they were given.
    This held up even when the study took account of 
differences in the performance of students on prior tests and 
differences in the background of teachers. When we see then 
that the kind of knowledge that the teachers have can translate 
into the performance of students, a question becomes, what 
enhances the knowledge of the teachers themselves?
    It is now evident that professional development programs 
can be designed to advance learning by teachers and as a 
consequence have demonstrable effects on student learning. Yet, 
I suggested it's not enough to have interested students; 
students must have the qualified teachers who can enhance the 
learning, but that for teaching and for the teaching 
effectiveness we know that resources, tools and resources make 
a difference.
    NSF has in fact supported the development of materials and 
resources to accelerate student learning. Those tools, in turn, 
have been assessed to determine what is their viability under 
different kinds of conditions.
    I'll just mention a few of the kinds of tools that have 
been developed. One is called the Cognitive Tutor. This is 
actually a software package that provides personalized 
instruction for students. It's been used very extensively in 
mathematics teaching, and in fact with the assessment we know 
that's the reason why the tutor has now been introduced to over 
500,000 students in some 2,600 schools across the country.
    There is also the tool SimCalc Math World. I know, quite a 
mouthful. The SimCalc Math World has technical materials and 
software for teaching core concepts in algebra. Rigorous 
evaluations of the curriculum show how effective it is in 
enhancing an understanding particularly of complicated matters 
that students often struggle with in algebra, including linear 
functions.
    Finally, among the tools and the assessment is Engineering 
is Elementary. This is a curriculum that integrates engineering 
technology concepts and skills with elementary science, 
reading, mathematics, and social studies. And the research has 
been conducted in places that have used Engineering is 
Elementary. Such research has shown that students who use these 
materials gain in their understanding of engineering and 
science concepts and especially they come to understand a lot 
better what engineers actually do.
    In general, then, and in conclusion, what we see from the 
body of work is that there are the conditions that are 
interrelated. Yet, there are other things that need to be 
pointed out. The best of teachers, and the best of resources 
cannot produce learning if students are not in the relevant 
courses.
    Recognizing this, one district or state after another has 
raised requirements in mathematics and science for high school 
students. And certainly Texas exemplifies this trend of raising 
the requirements. Noteworthy too are efforts to encourage 
strong STEM content in the early school years. These efforts 
echo what we are finding in other nations whose students excel 
in international math and science comparisons. In those 
nations, we know that the students get an introduction into the 
fundamental concepts early in their careers, early in the 
school years; there is no waiting until high school and beyond.
    Thus, the National Science Foundation stands ready to act 
in partnership with all who want to improve STEM education in 
the United States. Our experiences show that knowledge can be 
advanced through solid research, and that knowledge can be used 
in the service of STEM education improvement. We are prepared 
then to work in partnership with all who share the goal of 
ensuring excellence and quality for STEM education. Thank you.
    Mr. Hall. We thank you.
    [The prepared statement of Dr. Marrett follows:]
                 Prepared Statement of Cora B. Marrett
    Chairman Gordon, Ranking Member Hall, and Representative Ross, 
thank you for inviting me to participate in this hearing on science, 
technology, engineering and mathematics (STEM) education. The National 
Science Foundation (NSF) is committed to promoting excellence in STEM 
education. We are fortunate to have that same level of commitment to 
excellence from you, as is evident from your legislative actions and 
your continued interest in inspiring our youth to pursue STEM careers.
    The hearing today reflects three overarching concerns: (1) the 
conditions prompting student interest in and pursuit of careers in 
science and engineering; (2) the circumstances enhancing excellence in 
teaching and learning in STEM; and (3) the tools, resources, materials 
and technologies linked to effective STEM teaching and learning. Over 
the years, NSF has funded projects addressing all three areas. It has 
also aggregated information on STEM education, drawn from activities 
funded by other agencies and foundations as well as by NSF. That 
information provides a useful backdrop for this hearing on student 
interest, teacher enhancement, and high-quality resources. This 
testimony generally does not address the criteria laid out in the ACC.

What we think we know about students:

        <bullet>  Course-taking, not mere interest, contributes to STEM 
        learning. The completion of challenging courses has links to 
        performance, particularly on tests of achievement. The evidence 
        is especially strong in the case of pre-college mathematics.

        <bullet>  Enrollment in advanced courses during the secondary 
        school years influences the selection and completion of STEM 
        majors during college.

        <bullet>  Nationally, the trend is toward greater participation 
        of secondary school students in advanced mathematics and 
        science courses.

What we think we know about teachers:

        <bullet>  Students learn more from mathematics and science 
        teachers who have strong content knowledge and pedagogical 
        skills than they do from teachers who lack these attributes. 
        The skills are more often found among experienced than novice 
        teachers.

        <bullet>  Most mathematics and science teachers in public 
        middle and high schools participate in professional development 
        activities.

        <bullet>  Teacher effectiveness rises with a less chaotic 
        environment, greater support from administrators and 
        colleagues, and more adequate teaching and learning resources.

Students

    NSF's STEM education research and development portfolio underpins 
these overall general findings and offers insights into the processes 
under-girding them. The Longitudinal Study of American Youth (LSAY) is 
quite relevant to the issue of student interest, performance, and 
achievement. Launched in 1989, the LSAY has tracked pre-college 
students over time to determine their interest in mathematics and 
science and the subsequent choices they make. Table 1 is a summary of 
attitude changes among high school students. It shows that in general 
students are no more likely to like or dislike science and mathematics 
than they are other subjects, as evidenced by similar mean scores.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The LSAY results suggest a positive relationship between an 
individual's attitude toward science during high school and choice of a 
STEM major in college (see Table 2). The level of interest in science 
was assessed among students in grade 10, and their college major 
determined subsequently. Those expressing the highest level of interest 
(score: 4) were more likely to have chosen a STEM major than were 
students uninterested (score: 0) in science. It is worth noting that 
most students chose non-STEM majors, regardless of the evaluations of 
science they had made earlier. Attitudes alone do not shape career 
trajectories.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Based on our experience we believe that persistence in a STEM major 
is affected by:

        <bullet>  Bridge programs in the summer before the first year 
        of college to enable at-risk students to gain the academic 
        skills necessary to compete successfully at the college level;

        <bullet>  Changes in pedagogy and content of first-year STEM 
        gateway courses that allow all students to master content and 
        improve their ability to think critically and independently;

        <bullet>  Redesign of early mathematics sequences so that 
        students deficient in mathematics can reach mastery levels;

        <bullet>  Opportunities for first- and second-year 
        undergraduates to participate in authentic research;

        <bullet>  Initiatives that provide students with advice about 
        the careers available to STEM majors, the kinds of interests 
        and skills required in these careers, and the preparation 
        necessary for the careers; and

        <bullet>  Mentoring programs involving both peer mentoring and 
        faculty mentoring that encourage students to continue with 
        their majors and that provide individualized guidance for 
        navigating through these demanding STEM majors.

Teachers

    NSF has invested heavily in research and development programs to 
improve the knowledge, skills, and performance of teachers at all 
levels. Initial NSF results show that others have picked up this 
research and have investigated at large scale such as ExxonMobil 
mentioned below. The investments are particularly noteworthy in 
reference to professional development.
    Efforts to gauge the impacts of professional development have been 
constrained by a lack of instruments to measure teacher knowledge. 
Attempts to understand the relationship between teacher knowledge and 
student learning have been similarly limited. To address this need, the 
NSF's Math and Science Partnership program has funded many projects 
such as the examples below that have produced measures of knowledge 
that are being used widely.
    The Assessing Teacher Learning About Science Teaching (ATLAST) 
project is such an example. The project developed a program on force 
and motion for high school teachers and a test (ATLAST) to measure 
teacher learning of the fundamental concepts. Subsequently, the 
teachers tested their ninth grade physics students before the students 
were taught the concepts and reassessed them following a unit of 
instruction. The outcome: the higher the teacher's score, the greater 
the change in the scores of their students. ATLAST warrants attention 
not only because it fosters and measures learning by teachers, but also 
because it relates such learning to the performance of students.
    On mathematics learning, the study, Learning Mathematics for 
Teaching (LMT), merits notice. The study developed an instrument called 
Mathematical Knowledge for Teaching (MKT) to measure the mathematical 
knowledge and skills of teachers. It then tested the performance of the 
students. The outcome revealed a positive relationship between the 
performance of the teacher on the MKT test and the performance of his 
or her students. This outcome was obtained even when the study took 
into account the performance of the students on prior tests and 
differences in the backgrounds of the teachers and their schools. The 
LMT study later videotaped lessons from mathematics classrooms and 
scored the quality of the instruction, as evident in the absence of 
mathematical errors, the use of mathematical justifications and 
explanations, and the teachers' skill in representing the work of 
students. The instruction judged to be of higher quality occurred among 
teachers with higher scores on mathematical knowledge for teaching.
    The LMT study reinforces a result other research has uncovered: 
teaching effectiveness depends on an ability to translate knowledge 
into quality experiences for students. One such investigation comes 
from the Alliance for Improvement of Mathematics Skills, Pre-K-16, a 
partnership that includes Del Mar Community College, Texas A&M 
University-Kingsville, and nine independent school districts in South 
Texas. Over a two-year period, approximately 250 teachers participated 
in more than 30 hours of professional development, typically through 
mathematics-focused institutes. An observational study of teachers who 
participated in the institutes showed a sharp decrease in their use of 
``teacher-directed'' instruction (lecture) in favor of a more 
``student-centered'' learning environment. Such an environment related 
positively to measures of student engagement.
    A project funded at the University of Miami offers possibilities 
for closing the gaps still found in achievement between population 
groups. The program provided teachers with professional development 
workshops, and new mathematics and science instructional materials 
designed for English language learners. Measures taken before and after 
the instruction showed changes in science achievement that reached 
statistical significance. Likewise, performance in mathematics, 
measured on a statewide mathematics test, indicated greater improvement 
for the students given the specialized instruction than for a 
comparison group. It should be noted that both groups consisted 
overwhelmingly of students from economically disadvantaged backgrounds.
    Additional NSF programs designed to strengthen STEM teaching 
include Discovery Research K-12, with its emphasis on improving 
knowledge about teaching and learning; Geoscience Teacher Training 
(GEO-Teach), created to identify strategies of effective pre- and in-
service preparation for Earth science teachers; and the Physics Teacher 
Education Coalition, a project focused on increasing the quality and 
numbers of teachers in physics and other physical sciences. Past 
investments by NSF in teacher preparation have led to new models, such 
as the UTeach program at the University of Texas, now being replicated 
with ExxonMobil support. This model gives center-stage to master K-12 
teachers who take the lead in designing and teaching pre-service 
courses.

Tools

    NSF funded research has produced materials and resources to 
accelerate student learning. Those materials in turn have been assessed 
in educational settings at various scales as noted below, to determine 
their viability as classroom tools. Among the tools NSF has supported 
are:

        <bullet>  The Cognitive Tutor, a software package that provides 
        personalized instruction for the individual student. The 
        development work on The Cognitive Tutor began in 1980 and 
        continued into 2003 funded through more than 20 awards from 
        programs across the Foundation. Tutors using the software are 
        now reaching over 500,000 students in 2600 schools. 
        Evaluations, using very rigorous designs to assess impact, have 
        shown that the tutors do in fact improve learning. Indeed, the 
        consistently replicated results have made The Cognitive Tutor 
        one of only a few approaches the Department of Education 
        includes in its What Works Clearinghouse. Importantly, the 
        positive effects appear in rural as well as urban settings, in 
        schools with at-risk students and more advantaged ones, and 
        among honors students in addition to English language learners.

        <bullet>  SimCalc Math World, consists of text materials and 
        software for computers, and calculators for teaching core 
        algebra concepts. SimCalc has its roots in research funded by 
        the Directorate for Computer and Information Sciences in 1980. 
        The software development began with an award granted in 1993. 
        In the summer of 2005, SRI International began a rigorously 
        designed randomized controlled experiment with 151 7th and 8th 
        grade teachers and thousands of students from all over Texas. 
        The project compared a SimCalc replacement to existing 7th- and 
        8th-grade pre-algebra curricula. In both grades, the use of the 
        SimCalc curriculum and technology resulted in greater student 
        learning gains, especially for advanced aspects of 
        proportionality, rates, and linear functions that are required 
        for further STEM learning. The findings were robust across 
        variations in regional demographics, school poverty levels, 
        student ethnicity and gender, and with teachers having 
        differing attitudes, beliefs, and backgrounds.

           Students of teachers who implemented SimCalc's integrated 
        curriculum and software materials learned more advanced 
        mathematics than did students given other instructional 
        materials. The project's findings demonstrate how society can 
        harness the dynamic capabilities of technology to expand access 
        to advanced mathematics, and accelerate students' progress 
        towards STEM careers.

        <bullet>  Engineering is Elementary, a curriculum for 
        elementary school students, was developed by the informal 
        science community. The curriculum integrates engineering and 
        technology concepts and skills with elementary science topics. 
        In addition, it has connections with reading skills, 
        mathematics, and social studies. Studies show that children 
        using the Engineering is Elementary materials gain in their 
        understanding of engineering and science topics, compared to 
        children not using the materials. In addition, children in the 
        experimental group come to know what engineers do and what 
        technology entails.

           The curriculum and the research associated with it delve 
        into an area explored only infrequently: how children at young 
        ages think about engineering concepts. The body of work not 
        only illuminates this area, but also outlines ways in which 
        teachers can draw upon the knowledge and assumptions children 
        possess. Initial research suggests that this approach has been 
        successful in helping young children envision themselves as 
        engineers.

    I have presented thus far projects and outcomes centered on STEM 
learning in formal settings. But NSF recognizes and supports work in 
the informal sector as well. For example, a museum-based enrichment 
program tracked past participants who had completed at least one year 
of the program between 1992 and 1997, and found that for the people 
pursuing careers in health and other STEM fields, mentors and exposure 
to job skills were key elements to their job choice. With this finding 
in mind, 29 Innovative Technology Experiences for Students and Teachers 
(ITEST) projects currently match students with mentors, and all ITEST 
projects offer opportunities to develop job skills that students can 
take with them beyond the ITEST experience. Informal Science and 
Education (ISE) youth projects also use this strategy to build student 
exposure to STEM careers.
    NSF takes pride in the work that it has supported and the gains in 
student and teacher learning that are a result of those investments. 
However, there is substantially more work to be undertaken. To ensure 
continued progress, NSF stands ready to act in partnership with other 
federal agencies, such as the Department of Education, business and 
industry, professional associations and of course, policy-makers. The 
quality teaching and learning that the Nation needs--that our youth 
need--depend on us all.

                     Biography for Cora B. Marrett
    Dr. Cora B. Marrett is the Assistant Director of the Directorate 
for Education and Human Resources (EHR) at the National Science 
Foundation (NSF). She leads the NSF's mission to achieve excellence in 
U.S. science, technology, engineering and mathematics (STEM) education 
with oversight of a budget of approximately $825 million and a staff of 
150. EHR is the principal source of federal support for strengthening 
STEM education through education research and development (R&D).
    Dr. Marrett currently co-chairs the Subcommittee on science, 
technology, engineering and mathematics Education of the National 
Science and Technology Council, Committee on Science.
    Prior to her appointment at the NSF, Dr. Marrett served as the 
Senior Vice President for Academic Affairs in the University of 
Wisconsin System. Her NSF position is in conjunction with the UW-
Madison Department of Sociology, where she remains a tenured faculty 
member.
    Earlier, she held the post of Senior Vice Chancellor for Academic 
Affairs and Provost at the University of Massachusetts-Amherst.
    Her current position represents a return to NSF. She served at NSF 
as the first Assistant Director of the Directorate for Social, 
Behavioral and Economic Sciences. She received the NSF's Distinguished 
Service Award for her leadership in developing new research programs 
and articulating the scientific projects of the directorate. Dr. 
Marrett also served as the initial chair of the Committee on Equal 
Opportunities in Science and Engineering (CEOSE).
    In addition to her faculty appointment at the University of 
Wisconsin-Madison, she has been a faculty member at the University of 
North Carolina and Western Michigan University.
    Dr. Marrett holds a B.A. degree from Virginia Union University, and 
M.A. and Ph.D. degrees from UW-Madison. She has an honorary doctorate 
from Wake Forest University. She is a Fellow of the American 
Association for the Advancement of Science, the American Academy of 
Arts and Sciences, and Sigma Xi, the Science Research Society.
    Dr. Marrett received the Erich Bloch Distinguished Service Award 
from the Quality Education for Minorities (QEM) Network, given annually 
to an individual who has made singular contributions to the advancement 
of science and to the participation of groups under-represented in 
science, technology, engineering and mathematics. She is widely 
published in the field of sociology, and has held a number of public 
and professional service positions.

    Mr. Hall. At this time we'll hear from Mr. James Henry 
Russell. Stay as close to the five minutes as you possibly can.

    STATEMENT OF MR. JAMES HENRY RUSSELL, SUPERINTENDENT OF 
  SCHOOLS, TEXARKANA INDEPENDENT SCHOOL DISTRICT, TEXARKANA, 
                             TEXAS

    Mr. Russell. Yes, sir.
    Ranking Member Hall, Chairman Gordon and Congressman Ross, 
what a privilege it is to be here today. Not only to testify, 
but what a privilege this whole day has been for the Texarkana 
Independent School District and so many of the great things we 
have going on here. Not just here but in this community. As 
Congressman Hall mentioned earlier, I have been Superintendent 
now for a year and my mentor and trainer for the last ten years 
has been Dr. Larry Sullivan.
    I'll give you a warning sign of when you have great things 
coming in a community. About four years ago, Dr. Sullivan and 
Dr. Steven Hensley, President of TAMU-Texarkana, started having 
lunch together quite often. For the staff that works under 
them, that can be a scary thing because while they are great 
leaders and visionaries, they're also great delegators, and we 
knew there was quite a bit of work to come.
    People keep asking how this school district appeared, and 
I'll tell you it is because of these two great visionary 
leaders, the incredible Morriss family that made such a 
generous donation, and an entire community that not only 
supported this school district along with everything else--our 
community demands this type of school district.
    We talk about importance of STEM education and why it's 
important. I really enjoyed reading Bill Gates' testimony 
earlier talking about the two million new jobs that will be 
created in the future. It is our job to make sure the students 
of today are ready for those two million jobs that are coming 
in the future. STEM in our Texarkana community is really doing 
well. We actually started off at the high school level a few 
years ago. In fact, the Dean of the Engineering Program at 
TAMU-Texarkana, Dr. Doug Green, started teaching classes at 
Texas High School. The classes then moved to Morriss Elementary 
last August. That started last August, which you're seeing 
today. Then starting off this fall we will be starting with our 
sixth grade at a part of the academy of Texas Middle School, so 
it has STEM in Texas I.S.D. as well.
    Motivation is how we got to this school. My favorite 
professor, Dr. Rosanne Stripling to my left, always taught me 
about motivation and that you must have the needs of the 
community if you're going to be successful. So, we started with 
a Blue Ribbon Committee several months ago and found there was 
definitely a need for more engineers and more mathematicians, 
not only in this community but in this world. So, we had that 
grass roots support from the start, and it wasn't hard to build 
and move forward.
    Keeping students motivated in STEM, well I think you have 
just done that for us today. Among the 396 students that all of 
you have touched today, I guarantee you each of these kids is 
going home today wanting to be an astronaut or mathematician or 
a scientist and believing that they can be. This is so 
important with our students today, and we know they can do 
this.
    One of the major problems that limit the performance of 
students and teachers is finding qualified science and math 
teachers that will come to your schools and stay in your 
schools is a huge issue. There are so many opportunities in the 
corporate world it's really hard for school districts to 
compete to find these master teachers, and as we all know your 
staff is what gets things done. Teachers that love to teach and 
have the passion and drive and competence in this area is, in 
my opinion, the key number one issue. Motivating the kids is 
really not hard. You just need the facilities, the teachers and 
the programs.
    Some important things that the Federal Government has done 
and can do, providing a grant for another top-notch facility 
like this, we definitely would not turn down. We are proud to 
say this facility was totally built with local money, and we 
did not raise taxes to do it. So, there's no federal money 
involved here. It was a local effort, and we're proud of the 
facility. The Federal Government has been instrumental in 
different teacher training. You heard Dr. Marrett mention that.
    Again, our teachers are so important in making sure that we 
have the top ones. It is very important. And also curriculum. 
The National Science Foundation supports the Museum of Science 
in Boston. Actually, if you walked around the school today, you 
would see curriculum from the Museum of Science in Boston 
funded through the National Science Foundation at work. We just 
placed a large order and we could use more and more.
    We have all sorts of cooperative programs with A&M on 
developing curriculum. Dr. Stripling, I know, will talk about 
that more. Dr. David Allen who is probably in the room today, 
has a lot of instrumental programs that help train our 
teachers.
    I'm going to move to my closing now and stay close to that 
five minutes, and I'm actually going to stray away from STEM 
for just a minute. Rick Sandlin is another key reason why this 
school has been so successful; his is a great individual and 
has a great staff.
    I've got seven other elementary principals sitting behind 
me that are just having to hold onto their chairs to keep from 
standing up and screaming, come see what I'm doing in various 
other areas.
    What we need is great education. What we need are 
passionate good leaders and passionate good teachers to show 
the kids that they can do absolutely anything. Give those basic 
skills. Align with a great college like Texas A&M University, 
so the kids see much farther than today. So, in closing, again, 
thank you so much for being here. Thank you for honoring us and 
our kids. Thank you for showing our kids what their future can 
be if they continue to work hard. I'll be happy to answer any 
questions. The real experts are sitting not too close behind me 
to whisper me the answers when I need it.
    Mr. Hall. They're good to have, aren't they?
    [The prepared statement of Mr. Russell follows:]
               Prepared Statement of James Henry Russell

1.  What is the overall state of STEM education in Texarkana?

    We are excited about science, technology, engineering, and 
mathematics education in the Texarkana Independent School District. Our 
goal is to offer challenging mathematics and engineering concepts by 
providing a rigorous and seamless STEM curriculum.
    The Martha and Josh Morriss Mathematics and Engineering Elementary 
School is a state-of-the-art facility that serves as a national model 
for how young children can become engaged and educated in mathematics 
and engineering.
    At Texas Middle School we will provide these opportunities through 
our new Math, Science, and Engineering Academy. This academy, designed 
for sixth grade students, is a model that will be extended to seventh 
and eighth grades during the next two years.
    Students at Texas High School may earn both high school and college 
credits in a myriad of courses, including 38 semester credit hours in 
math, science, and engineering.
    The following value-added elements are included in our STEM 
program:

        <bullet>  Engineering Encounters/Academy Showcases--cross grade 
        level, theme-based authentic assessment projects completed and 
        presented by students to the public;

        <bullet>  An engaging engineering curriculum supported by the 
        National Center for Technological Literacy and the Museum of 
        Science, Boston;

        <bullet>  A math curriculum in which the K-8th grade and 
        Algebra I Texas Essential Knowledge and Skills (TEKS) are 
        accelerated;

        <bullet>  Dual credit courses, including advanced mathematics, 
        science, and engineering;

        <bullet>  Extended school-year enrichment activities, such as a 
        two-week summer Circuitry Camp and after-school Robotics.

Why is it important for all students to achieve proficiency in these 
subjects?

    In an increasingly technological society, it is imperative for 
students to achieve proficiency in science, technology, engineering, 
and mathematics. Student proficiency is necessary to close the gap 
between participation and success in secondary and higher education in 
a manner that effectively addresses a growing professional and career 
demand. As Bill Gates recently testified before the House Committee on 
Science and Technology, statistics project two million job openings in 
science, technology, engineering, and mathematics-related fields by 
2014. The decline in students pursuing STEM-related careers could 
stifle innovation and economic growth. In the words of the STEM 
Education Coalition, ``We believe that excellence in STEM education at 
all levels, among all populations, is vital to our nation's long-term 
economic prosperity, global competitiveness, and homeland security.''

2.  What was the motivation behind establishing the Martha and Josh 
Morriss Mathematics and Engineering Elementary School?

    A growing gap between the supply and demand for professionals in 
engineering and mathematics careers has alerted stakeholders across the 
Nation. At the national level, resolution of this dilemma has been 
identified as a federal priority via appropriation of the Science, 
Technology, Engineering, and Mathematics (STEM) project and the 
American Competitiveness Initiative unveiled by President Bush in his 
January 2006 State of the Union Address. Texas Senator Kay Bailey 
Hutchison publicly recognized the growing need for engineering 
education and research in Texas when she announced the creation of the 
Texas Academy of Science, Engineering, and Medicine in San Antonio in 
January 2004. The regional need for more engineers was documented in 
the late 1990s when Texarkana area businesses (e.g., International 
Paper, Domtar Paper Mill, and Alcoa) identified the need for an 
engineering program at Texas A&M-Texarkana as the number one community 
priority. The need for more regionally available engineers, coupled 
with the need for an increase in the quantity and quality of United 
States grown and educated engineers, sparked the development of the 
Texas A&M University-Texarkana--Texarkana ISD K-16 Engineering 
Collaborative.
    Although the effectiveness of a K-16 engineering collaborative as a 
means of ameliorating the supply and demand gap of engineers is a very 
logical, research-based approach, a comprehensive search has not 
identified another partnership of this kind across the United States. 
The Texas A&M University-Texarkana--Texarkana ISD K-16 Engineering 
Collaborative is a unique, sustainable, and replicable model that sets 
a gold standard for public schools and universities.

What role did parents, the community and local businesses play in the 
establishment of this school?

    In January 2005, Texarkana ISD convened the first meeting of the 
Blue Ribbon Committee, a group of parents, community and business 
leaders, and school district representatives. This panel's purpose was 
to review the school district's facilities, finances, and curriculum, 
and to make recommendations concerning future plans for the district. 
Following a series of planning sessions, the committee recommended the 
establishment of a new elementary school, a school that would become a 
national model for K-16 collaboration in how young children can become 
engaged in and educated for careers in mathematics and engineering.
    The first concrete step to this concept becoming a reality occurred 
in spring 2006 when the Josh Morriss, Jr. family donated 10.6 acres of 
land near the new 375 acre Texas A&M-Texarkana campus site for the new 
elementary school.
    Along with the contributions of the Blue Ribbon Committee and the 
Josh Morriss, Jr. family, Texas A&M University-Texarkana became an 
integral partner in the school's development. The University's 
involvement included consultation in the floor plan and architectural 
design, in integrated curriculum development, and in professional 
development for teachers.

Is there a plan in place to keep these students motivated in STEM 
subjects as they make the transition to middle school and on to high 
school?

    Texas A&M University-Texarkana and Texarkana Independent School 
District have established a vertically aligned kindergarten-16 
engineering education collaborative that will be executed at four 
levels:

        1)  A K-5 public elementary school (Martha and Josh Morriss 
        Mathematics and Engineering Elementary School) that provides a 
        mathematics and pre-engineering integrated curriculum, 
        Engineering Encounters (student-led, hands-on experiences 
        shared with parents and the community), and pre-engineering 
        thematic units (i.e., structures, forces, and gears) at each 
        grade level (opened in fall 2007)

        2)  The Math, Science, and Engineering Academy, a pre-
        engineering school-within-a-school at Texas Middle School 
        (planned for fall 2008)

        3)  Selected mathematics and science courses with pre-
        engineering content enrichment and dual credit engineering 
        courses at Texas High School (fall 2006)

        4)  A choice of three engineering related programs of study at 
        Texas A&M-Texarkana: BS in Computer and Information Sciences 
        (fall 2005), BS in Electrical Engineering (planned for fall 
        2008), and BS in Mechanical Engineering (planned for fall 
        2010).

3.  What are the major problems that limit the performance of students 
and teachers, and what do you feel is the single, most important step 
that the Federal Government should take to improve K-12th grade math 
and science education?

    The major problems that limit the performance of students and 
teachers in STEM education are centered around the lack of educational 
focus on STEM. Traditionally, teacher training in STEM has been 
limited; therefore, teachers often do not have confidence in their own 
STEM background knowledge and skills. This limitation leads to a 
deficiency in student awareness and interest in STEM career fields. In 
addition, instructional resources for STEM courses are costly, and 
funding is minimal. Finally, very few, if any, national models of 
successful, aligned STEM programs exist.
    The most important step the Federal Government should take to 
improve K-12th grade math and science education is to provide strong 
support for STEM teacher professional development. Research 
consistently shows that the single most important factor in student 
achievement is teacher quality. We urge the Federal Government to 
provide grants and other financial assistance directly to school 
districts and to other public educational entities that have identified 
needs and priorities in the area of STEM education.

What involvement have you had with math and science education programs 
at the National Science Foundation or other federal agencies as well as 
those in the State of Texas?

    The Texarkana Independent School District has been involved with 
the following STEM programs:

        <bullet>  East Texas Regional Collaborative for Excellence in 
        Science Teaching--a continuing project funded since 1997; 
        offered through grants from the Texas Regional Collaboratives 
        for Excellence in Science Teaching

        <bullet>  Teacher-to-Teacher Initiative--designed by teachers 
        for teachers in order to provide technical support, 
        professional development opportunities, and recognition for 
        teachers of all content areas and grade levels; offered through 
        the U.S. Department of Education

        <bullet>  The East Texas STEM Center--a federal program 
        designed to improve instruction and academic performance in 
        science- and math-related subjects at Texas high schools; 
        offered through a T-STEM federal grant

        <bullet>  The Teacher Quality Grants Program--a federally 
        funded effort providing grants to higher education institutions 
        and nonprofit organizations; offered through the Texas Higher 
        Education Coordinating Board and the Charles A. Dana Center

What are the most important and effective components of these programs?

    These programs focus on sustained professional development in both 
STEM content and in research-based instructional strategies for 
teachers. All three programs rely on federal and State funding to 
provide opportunities for professional development. The programs 
provide crucial support for teachers in preparing students for college 
and for entry into STEM career fields.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Biography for James Henry Russell

EDUCATION

        -  Superintendent Certification, Summer 2005

        -  Principal Certification. anticipated December 2004

        -  Masters in Education Administration, anticipated December 
        2004-Texas A&M University, Texarkana

        -  Certified Public Account (CPA) Certification, 1994

        -  BBA in Accounting, 1992-Texas A&M University, College 
        Station, Texas

EMPLOYMENT

Texarkana Independent School District, 4241 Summerhill Road, Texarkana, 
TX; 903.794.3651

    Texarkana ISD is an urban school district located on the Texas-
Arkansas border. The District has seven elementary campuses, one middle 
school, and one high school with a combined student enrollment of 
approximately 6,000 students, served by over 800 employees.

Formaily Named Superintendent of Schools August 14, 2007. Mr. Russell 
is a lifelong resident of Texarkana, an honor graduate of Texas High 
School with a Bachelor's degree in accounting and a Master's in 
Education Administration from Texas A&M University. He is a Certified 
Public Accountant with Principal and Superintendent Certifications. He 
began his career with TISD in August 1994 as Food Services Comptroller. 
A year later, he moved into the position of Director of Purchasing for 
three years, following by Directors of Purchasing & Support Services 
where he remained until 2003 when he was named Assistant Superintendent 
for Business & Support Services. He was named Deputy Superintendent in 
October 2006.

Assistant Superintendent for Business and Support Operations--(May 2003 
to October 2006)

        -  Generate and manage an annual budget in excess of $40 
        million

        -  Manage all financial resources of the school district, 
        including cash flow and investment system, debt financing

        -  Supervise all business and support operations with the 
        following departments: Purchasing, Accounting, Technology, 
        Transportation, Maintenance, Security/Police, Management 
        Information Systems (MIS). Food Service, and Security/Police--
        consisting of over 400 employees

        -  Direct all district construction projects, including current 
        additions and improvements to Texas High School ($13 million)

        -  Serve on the Superintendent's Cabinet in an advisory role 
        for all district operations and long-range planning

Director of Purchasing and Support Operations--(February 1998 to May 
2003)

        -  Supervised Maintenance, Transportation, Food Service, 
        Security, Custodial and Grounds Departments

        -  Managed the district warehouse inventory system and central 
        warehouse operation

        -  Oversaw $30 million in construction projects including the 
        new Texas Middle School ($25 million) and improvements and 
        additions to seven elementary campuses ($9 million)

        -  Participated in the development, implementation and 
        management of a health benefit trust and partially self-insured 
        health plan

        -  Developed a profit-oriented venture with other school 
        districts to operate their food service division

Director of Purchasing and Food Service Comptroller--(December 1994 to 
February 1998)

        -  Supervised the Food Service department

        -  Developed district purchasing guide

        -  Responsible for all district purchasing activities

        -  Automated warehouse inventory system

        -  Negotiated with vendors for cost savings and efficiency

Food Service Comptroller--(August 1994 to December 1994)

        -  Implemented district-wide point-of-sale system

        -  Instituted computerized inventory system

        -  Generated monthly financial statements by campus

        -  Developed accounting control system

Thomas & Thomas, Certified Public Accounts and Regional Accounting Firm

Staff Accountant--(June 1992 to August 1994)

        -  Conducted audits for corporations and for-profit and non-
        profit organizations

        -  Prepared corporate and personal tax returns

        -  Consulted with businesses on financial efficiency and tax 
        laws

CIVIC AND PROFESSIONAL, ORGANIZATIONS

CURRENT
Texarkana Chamber of Commerce--President Elect

Texarkana Chamber of Commerce--Board of Directors Member

Texarkana Community Foundation--Youth Advisory Council Adult Sponsor

Texas Association of Public Schools--Board Member

Williams Memorial Methodist Church--Chairman, Board of Trustees and 
        Member, Building

Committee and Finance Committee

Leadership Texarkana--Board of Directors Member

American Institute of Certified Public Accounts--Member

Texas Society of Certified Public Accounts--Member

FORMER

Oaklawn Rotary Club--President

Greater United Way of Texarkana--Chairman

Awareness of Crime--Board Member

United Way of Texarkana--Executive Board Member

Texarkana Junior League--Advisory Board Member

Today's Youth, Tomorrow's Leaders--Curriculum Chairman, two years

Texarkana Volunteer Center--Board Member

American Heartwalk and Relay for Life--Logistics Chairman

Susan G. Komen Texarkana Race for the Cure--Volunteer

Leadership Texarkana--Graduate

Girl Scouts of Conifer Council--Advisory Board Member

COLLEGE ORGANIZATIONS

Beta Gamma Sigma--Business Administration Honor Society

Beta Alpha Psi--National Accounting Honor Fraternity

Accounting Society

PERSONAL INFORMATION

    Mr. Russell is married to Rosemary Reed Russell, and they are 
active members of Williams Memorial United Methodist Church. Mrs. 
Russell is also a teacher in Texarkana ISD. They have three children--
Madeline-12, Colleen-9, and Reed-6.

    Mr. Hall. Okay, before I ask Rosanne Stripling to begin, 
let me recognize others that had a part in bringing this day to 
fruition. Our mayor Dr.--Mayor Brown, stand up please and let 
us recognize you. Thank you. He was here. How about our new 
mayor, Steve Mayo?
    Voice. They're out working.
    Mr. Hall. They're out there cutting taxes and filling 
potholes, Right. All right, Rosanne Stripling, you're going to 
have to give us in five minutes a good reference as to where 
these two gentlemen are and what they're doing.
    Dr. Stripling. That I can't do.
    Mr. Hall. Let me recognize you. Before we do, let me 
recognize Steven R. Hensley, too, who is our President of Texas 
A&M. Where are you, Mr. President?

STATEMENT OF DR. ROSANNE STRIPLING, PROVOST AND VICE PRESIDENT 
     FOR ACADEMIC AFFAIRS, TEXAS A&M UNIVERSITY-TEXARKANA, 
                        TEXARKANA, TEXAS

    Dr. Stripling. Chairman Gordon, Ranking Member Hall, 
Congressman Ross. It is indeed a pleasure and an honor to be 
here this afternoon to engage in this very important 
conversation, and specifically to share with all of you some 
ways in which universities can actually work with communities 
and their public schools to partner--to effectively partner in 
achieving the stated goal of this hearing.
    One of the components of the Texas A&M University Texarkana 
Institutional mission is service to the Northeast Texas region. 
The preparation of teachers for area schools was one of the 
very first manifestations of this commitment and continues to 
be a major emphasis today.
    During the past ten to fifteen years, partnerships have 
grown to include new programs and initiatives as well as the 
expansion of existing programs to new size. Several examples, 
including those relating to STEM, are described in my written 
testimony which I know you have a copy of.
    One of the most notable partnerships, however, is the 
regional and national award winning Westlawn Professional 
Development School, a collaborative effort between Texarkana 
I.S.D. and A&M-Texarkana that have purchased professional, 
educated preparation from a very unique, research-based medical 
model design. Success of the Westlawn PDS set the stage for the 
university's next major collaborative with the Texarkana 
I.S.D., the Martha and Josh Morriss Elementary School for 
Mathematics and Engineering.
    The three main categories of collaboration between the 
university and the I.S.D. were No. 1, facility planning; No. 2, 
integrated curriculum development, and No. 3, teacher training. 
Let me briefly describe our collaborative efforts in each of 
these areas.
    A&M-Texarkana engineering faculty work with Texarkana 
I.S.D. administrators and their architects in the conceptual 
design of the building providing consultants, consultation 
regarding the size, proximity and utilization of space, as well 
as the inclusion of engineering and mathematics value-added 
elements.
    Faculty and administration within the College of Arts and 
Science and Education worked collaboratively with 
representatives from the Texarkana I.S.D. curriculum department 
to envision and create a frame work for the new school's K-5 
curriculum. After much research and discussion the team 
determined that the State core curriculum would be expanded to 
include discreet engineering courses at each grade level and 
delivered via an integrated approach to engineering or 
mathematics to ensure that those concepts would be threaded 
throughout all of the other subjects the students were taking.
    Delivery of curriculum would be student-centered and 
project based, with assessment of student mastery of the 
curriculum being heavily dependent upon authentic performance 
measures. Now, after the integrated curriculum is outlined, the 
Texarkana I.S.D. curriculum specialist and the A&M-Texarkana 
faculty developed syllabi for two university graduate courses 
that would be taken by all Morriss teachers during the summer 
prior to the opening of the new school. One course addressed 
the design or the content of the curriculum. The second course 
addressed the delivery or the instructional strategies of the 
integrated curriculum. Both courses were taught by Texarkana 
I.S.D. curriculum specialists who were given adjunct faculty 
status at the university.
    Morriss teachers receive credit for both courses toward 
their Master of Science degrees in curriculum instruction, one 
of two requirements of all Morriss teachers who didn't possess 
a Master's degree at the time of their assignment to the 
school.
    The other requirement is attainment of the Texas Master 
Mathematics Teacher's certificate, a twelve-semester credit 
hour program developed initially by A&M faculty for training of 
Morriss teachers.
    When fall of 2007 arrived there was really no question in 
anybody's mind that the foundation for success was in place, 
but we also knew that the implementation phase of the project 
is always the most challenging, and that to declare and not 
deliver would be worse than never declaring at all.
    After what we've seen today at this extraordinary school, 
is there any doubt in anybody's mind that shaping our future 
science, technology, engineering, and mathematics leaders of 
tomorrow can't be successfully accomplished through the 
delivery of a rigorous curriculum in the primary grades that 
initiates and sustains the engagement, curiosity and excitement 
of young children in science and of mathematics.
    In closing, there is nothing profound or complex about this 
replicable model. It's the result of a gestalt of cooperation, 
vision, tenacity, and courage, the courage to do what we know 
is required to offer our children the chance to compete and 
lead in tomorrow's world. Thank you.
    Mr. Hall. I'm going to master this thing before everybody 
leaves. We'll recognize Mr. Mike Leherr for five minutes.
    Thank you, Dr. Stripling.
    [The prepared statement of Dr. Stripling follows:]
                Prepared Statement of Rosanne Stripling
    Texas A&M University-Texarkana has had a long tradition of 
partnering with area public schools. One of the components of our 
institutional mission is service to the Northeast Texas region. The 
preparation of teachers for area public schools was one of the first 
manifestations of this commitment and continues to be a major emphasis. 
During the past ten to fifteen years, partnerships have grown to 
include new programs and initiatives, as well as the expansion of 
existing programs at new sites. Noteworthy examples include:

        <bullet>  The A&M-Texarkana Center on the Northeast Texas 
        Community College (NTCC) in Mt. Pleasant that provides upper 
        division course work for NTCC students who want to complete 
        their undergraduate degree and teacher certification program in 
        selected areas. The NTCC Center, in its fifth year, offers 
        students to opportunity to pursue a teaching certificate in EC-
        4, EC-4 with special education, 4-8 mathematics, and high 
        school mathematics. The available options have broadened to 
        include additional teaching certificates in biology and a 
        degree in criminal justice. As a community college, NTCC's 
        mission focuses on serving graduates of local high schools as 
        well as citizens who live in the Northeast Texas geographical 
        area.

        <bullet>  ``Preparing Educators of Tomorrow'' (PET), an aide-
        to-teacher program at Hallsville: The College of Arts and 
        Sciences and Education developed a partnership with Kilgore 
        Community College and public school systems in the Longview-
        Hallsville area for the purpose of assisting school districts 
        to ``grow their own'' teachers. The first cohort that graduated 
        in 2007achieved a 100 percent passing rate on the State 
        certification examination (TExES), and the second cohort is on 
        schedule to graduate in summer 2008. The Hallsville ISD has 
        been a major partner in this effort, as evidenced by the 
        district leadership's willingness to provide classroom meeting 
        space and equipment for instruction.

        <bullet>  Expansion of the master of education degree in 
        education leadership and principal certification program to 
        teachers in the Hallsville and Hughes Springs areas, via a Web-
        enhanced format: In the fall of 2007, A&M-Texarkana expanded 
        the existing Hallsville partnership by adding a distance 
        education program in which educators at areas schools can 
        attain a Master's degree in education administration and 
        principal certification via a Web-enhanced format involving 
        face-to-face seminar and on-line components. The purpose of 
        this program is to increase the supply of quality principals 
        for area schools. The Hughes Springs and Hallsville ISDs 
        provide classroom space without cost to the University. During 
        spring 2008, 32 students are enrolled in both programs.

        <bullet>  Westlawn Elementary Professional Development School 
        (PDS), a Texarkana Independent School District (ISD) elementary 
        school where A&M-Texarkana student teachers (teacher interns 
        employed by the district) work with master teachers (mentors) 
        in a clinical instructional setting during the fall and spring 
        semesters of the students' senior year. Two interns and a 
        master teacher at each grade level (K-5) are assigned to teach 
        approximately 45 students in a team teaching approach. An A&M-
        Texarkana faculty member is assigned to the PDS as a university 
        liaison on a full-time basis for demonstration teaching, 
        delivery of integrated instruction of the university pedagogy 
        courses that the teacher interns are taking during their last 
        two semesters, and overall program supervision and management. 
        The Westlawn PDS won the Magna Award for Teaching Excellence 
        from the National Association of School Boards and the 
        Innovation in Teacher Education Award from the Southeastern 
        Regional Association of Teacher Educators in 2005.

        <bullet>  Dual credit introductory engineering courses on the 
        Texas High School campus: A&M-Texarkana engineering faculty 
        have taught dual credit introductory engineering courses on the 
        Texas High School campus in the Texarkana ISD each semester for 
        the past two school years.

        <bullet>  Instructional improvement consultant service to 
        select Texarkana ISD schools: During the 2003-04 academic year, 
        an A&M-Texarkana faculty member served as the Technical 
        Assistance Provider (TAP) to Dunbar Intermediate School, a low 
        performing Texarkana ISD elementary school to provide 
        consultant assistance and teacher professional development. 
        After the selection and implementation of a clinical reading 
        program, the campus attained and as continued to maintain 
        ``Recognized'' status from the Texas Education Agency. The same 
        clinical instruction was expanded to the feeder early literacy 
        campus, Theron Jones, the following year with the same 
        exceptional academic results.

        <bullet>  The Master of Science degree in curriculum and 
        instruction that provides sufficient flexibility for 
        surrounding school districts to tailor the graduate study of 
        teachers to meet district needs: The 36 semester credit hour 
        degree program includes an 18 hour curriculum core and 18 hours 
        from one to two areas of concentration agreed upon by the 
        student and advisor. By design, the degree is flexible enough 
        to allow local area high school teachers to acquire the 18 
        hours of content within a Master's degree that are required to 
        teach dual credit courses. Texarkana ISD began immediately to 
        scholarship approximately 20 of their teachers through the 
        program each year. Liberty-Eylau ISD followed quickly with up 
        to five scholarships per year. The two districts also pay for 
        the students' textbooks.

        <bullet>  The Young Writers' Program, a program that has 
        offered thousands of area students the opportunity to 
        participate in a two-week, half-day writing activity each 
        summer. Approximately 150 students in grades two through twelve 
        who are recommended by their classroom teachers and selected by 
        a university committee participate each year. Program goals 
        are: (1) to identify students who show potential in writing and 
        encourage them to excel as writers, (2) to create a community 
        of writers and offer students the chance to work with 
        professional authors, (3) to provide students with the 
        opportunity to meet students from other schools who are 
        interested in writing, and (4) to provide students with the 
        opportunity to get their work published. Students have the 
        opportunity to write in various genres, including fiction, 
        nonfiction, and poetry. On the final day of the program, 
        parents and other guests attend a program featuring some of the 
        works written over the two-week period. Approximately 300 
        people usually attend. An anthology of the students' work is 
        then prepared, printed, and distributed to students during the 
        following school year.

        <bullet>  Region VIII Education Service Center partnership in 
        which A&M-Texarkana faculty work collaboratively with ESC 
        personnel to train and certify elementary bilingual teachers 
        for area schools: In the past five to six years, the percentage 
        of limited English proficient (LEP) students in the Mt. 
        Pleasant area has grown significantly, and the need for 
        bilingual teachers has grown accordingly. To address this need, 
        A&M-Texarkana faculty developed and implemented a EC-4 
        Generalist with Bilingual Education certification program. 
        Faculty offer course work to students via face-to-face and 
        distance education formats. Participants spend from two to four 
        weeks at a partner institution in Mexico each May refining 
        their Spanish language skills.

    For the past ten years, the Texarkana ISD has been A&M-Texarkana's 
major public school partner. Consequently, when the Texarkana ISD Board 
of Trustees approved the Martha and Josh Morriss Elementary School for 
Mathematics and Engineering in 2004, the university faculty and 
administration made an immediate commitment to assist the district with 
this formidable project. The three main categories of collaboration 
were facility planning, integrated curriculum development, and teacher 
training.

        <bullet>  Facility planning: A&M-Texarkana engineering faculty 
        worked with Texarkana ISD administrators and their architects 
        in the conceptual design of the building, providing 
        consultation regarding the size, proximity, and utilization of 
        space, as well as the inclusion of engineering and mathematics 
        ``value added'' elements.

        <bullet>  Integrated curriculum development: Faculty and 
        administration within the College of Arts & Sciences and 
        Education worked collaboratively with representatives from the 
        Texarkana ISD curriculum department to envision and create a 
        framework for the new school's grade K-5 curriculum. After much 
        research and discussion, the team determined that the Texas 
        curriculum standards (Texas Essential Knowledge and Skills) 
        would serve as the core curriculum, augmented by discrete 
        engineering courses at each grade level, and delivered via an 
        integrated approach in which engineering and/or mathematics 
        concepts would be threaded through all subjects. Delivery of 
        the curriculum would be student-centered and project-based, 
        with assessment of student learning relying heavily upon 
        authentic performance measures.

        <bullet>  Teacher training: After the integrated curriculum was 
        outlined, Texarkana ISD curriculum specialists and A&M-
        Texarkana faculty developed syllabi for two A&M-Texarkana 
        graduate courses that would be taken by all Morriss teachers 
        during the summer prior to the opening of the new school. One 
        course addressed the design (content) of the curriculum; the 
        other addressed the delivery (instructional strategies) of the 
        integrated curriculum. Both courses were taught by Texarkana 
        ISD curriculum specialists who were given adjunct faculty 
        status at the university. Morriss teachers received credit for 
        both courses toward their Master of Science degrees in 
        curriculum and instruction. All Morriss teachers who do not 
        already have a Master's degree at the time of assignment to the 
        school are required to obtain the degree, as well as the Texas 
        Master Mathematics Teacher (MMT) certification, a 12-semester 
        credit hour program developed by A&M-Texarkana faculty.

    In addition to being a partner in the Martha and Josh Morriss 
Elementary School for Mathematics and Engineering, A&M-Texarkana is 
involved in other STEM activities:

        <bullet>  East Texas Regional Collaborative for Excellence in 
        Science Teaching (http://www.tamut.edu/-allard/etrc/
        etrcindex.htm): This program involves A&M-Texarkana, Texarkana 
        College, and pre-K-12 public school teachers in the Northeast 
        Texas geographical area. The primary focus is on the 
        improvement of science teaching with respect to teacher content 
        knowledge, pedagogy, and technology integration in the 
        classroom. Teachers receive a minimum of 105 hours of intensive 
        professional development per year. Other agencies or 
        institutions that have provided teacher development grants 
        include the Texas Higher Education Coordinating Board (Teacher 
        Quality grant program); the Texas Commission on Environmental 
        Quality, the Institute for Global Environmental Studies ESSEA 
        program, and the NASA-NOVA program.

        <bullet>  Robotics Summer Camp for students held on the A&M-
        Texarkana campus each summer: For the past three years, A&M-
        Texarkana's Student Recruitment Group has received funds from 
        the Texas Workforce Commission to support the Robotics Camp, 
        designed to encourage high school and middle school students to 
        consider computer 8s information sciences (CIS) as a college 
        major. Instructors for the camp are drawn from A&M-Texarkana's 
        CIS professors and students. Attendees meet from 1 p.m. to 5 
        p.m. every afternoon for two weeks to learn the fundamentals of 
        robotics, robotics programming, robotics construction 
        techniques, and robotics trouble shooting. Camp attendance has 
        grown steadily over the past three years. In summer 2007, 24 
        students participated in the Camp. There is typically a rich 
        mix of minority students among the attendees. At the end of the 
        Camp, teams of attendees participate in a robotics competition 
        that receives regional news coverage.

        <bullet>  Teachers' Robotics Workshop for pre-K-12 teachers: 
        A&M-Texarkana's computer and information sciences (CIS) program 
        has sponsored three workshops to demonstrate how robots can be 
        used as a teaching tool in pre-K-12 classrooms. Robotics 
        instruction and demonstrations are provided by professional 
        robotics instructors. Participating teachers are given access 
        to robotics kits throughout the year to enhance their knowledge 
        about the techniques presented in the workshop. Previous 
        workshops have been one day in duration and each has attracted 
        approximately 12 teachers. In summer 2008, the Teachers 
        Robotics Workshop will be expanded to two days.

        <bullet>  A Saturday Programming Clinic to teach and refine to 
        teach and refine computer programming language skills of the 
        participants. A&M-Texarkana computer and information sciences 
        faculty initiated and operate the clinic meets on A&M-
        Texarkana's campus each Saturday from 10 a.m. to 2 p.m. To 
        date, the clinic has served community college students and 
        members of the general public totaling approximately 25 
        participants. Next year, the clinic plans to actively recruit 
        high school students.

        <bullet>  A ``think tank'' collaborative to develop replicable 
        models that can aggressively improve the success of public 
        school children in all aspect of STEM: For the past two years, 
        select members of the A&M-Texarkana faculty, the Texarkana ISD 
        leadership and curriculum staff, and City of Texarkana 
        leadership have collaborated with faculty from UT-Dallas, 
        Baylor University, Princeton University, and Texas State 
        Technical Institute in the analysis and selection of next step 
        initiatives to further the STEM agenda, utilizing the Texarkana 
        collaboration as a laboratory model.

        <bullet>  National Science Foundation (NSF) Robert Noyce 
        Scholarship Program: Almost four years ago, A&M-Texarkana was 
        one of 17 universities awarded a first time Robert Noyce 
        Scholarship Program funded by the National Science Foundation 
        in the amount of $389,850 for four years. The purpose of the 
        Noyce Program is to provide scholarship assistance to talented 
        junior and senior mathematics and science undergraduate majors 
        who demonstrate financial need and who desire to earn their 
        teacher certification through the Bachelor's degree. STEM 
        professionals, who have a mathematics or science degree and 
        have been working in their field, may choose to enter A&M-
        Texarkana's Alternative Certification Program (ACP) to earn 
        their teaching credentials and receive stipends through the 
        Noyce Program. Recruitment is specifically aimed at under-
        represented racial minority and female students. The Noyce 
        Program has awarded 28 scholarships to date. Twenty-nine (29) 
        percent of the recipients are science majors and 71 percent are 
        mathematics majors. Seventeen (17) undergraduate students have 
        graduated and are fully certified mathematics or science 
        teachers while four STEM professionals have received their 
        teaching credentials for mathematics or science. Two additional 
        students will complete resident teaching in May and will 
        graduate in spring 2008, bringing the total number of graduates 
        to 23. The most effective component of this program is the 
        scholarship awards.

    All of the initiatives described above, as well as those underway 
in other collaboratives across the Nation, are certainly worthy efforts 
in attempting to address the important mission so eloquently stated in 
the title of this hearing--Shaping Our Future Science, Technology, 
Engineering and Mathematics Leaders of Tomorrow By Inspiring Our 
Children of Today. However, much more is needed. . .. Although the 
United States may be a world economic and political power in many 
aspects, data support a widely held concern that our students are not 
leading the way in science, technology, mathematics and engineering. I 
propose that this lack of achievement is primarily a function of what 
happens in schools, not limitations inherent within the students. 
Research supports the proposition that students from all demographic 
groups learn at higher rates when the curriculum objectives are clear 
and measurable, effective teaching methods are utilized, and formative 
and summative assessment data are routinely translated into feedback 
for instructional improvement. A final requirement is that all major 
stakeholders have and communicate high expectations that all students 
can learn the objectives at a high degree of mastery.
    In the areas of mathematics and science, achieving this lofty goal 
involves the delivery of a rigorous curriculum in the primary grades 
via pedagogy that initiates and sustains the engagement, curiosity, and 
excitement of children--i.e., student-centered activities; meaningful, 
real-world applications; discovery learning; and challenging projects. 
It is critical that students develop a strong sense of confidence in 
their ability to ``do'' mathematics and science at an early age. This 
self-confidence promotes the further pursuit of rigorous course work in 
the middle and high school years that forms the foundation for a strong 
internal locus of control regarding their ability to choose and 
experience success in challenging careers in mathematics or science. 
Reversing a student's negative attitude toward and failure to thrive in 
science or mathematics that has developed in elementary school is 
extremely difficult to accomplish during the middle years and almost 
impossible by the time a student arrives on the high school campus.
    Elementary teachers charged with this incredibly challenging but 
important task of hooking children to mathematics and science in the 
elementary years are, for the most part, doing their best, considering 
their limited formal training. Many teachers lack the content knowledge 
themselves and the pedagogy skills to make mathematics and science come 
alive for students and, therefore, to promote high levels of student 
curriculum mastery. A review of elementary teachers' college 
transcripts as well as university teacher certification plans typically 
reveals few mathematics/mathematic education and science/science 
education courses. Further, many elementary teachers self report a lack 
of interest, preparation, or confidence in their ability to teach 
mathematics or science.
    The first step to improved student achievement in mathematics and 
science is building the capacity of teachers by increasing their 
content knowledge and broadening their skill sets in delivering a 
rigorous, but compelling and engaging curriculum. Although important at 
all grade levels, an urgency must be placed at the elementary level 
because of the greater teacher need, exacerbated by the criticality of 
making the student mathematics and science ``connection'' in the early, 
impressionable years. The solution to accomplishing this goal involves 
several approaches, ideally implemented simultaneously:

        a.  Redefine teacher education to require additional science 
        and mathematics content and pedagogy course work;

        b.  Strengthen the knowledge and skills of existing teachers 
        through professional development via summer institutes, 
        specific topic seminars, graduate degree and certificate 
        programs (such as the MMT), and professional learning 
        communities;

        c.  Refine and expand the knowledge base of ``what works'' in 
        mathematics and science education through applied and action 
        research. Disseminate the results far and wide;

        d.  Increase the number of mathematics and science teachers by 
        awarding four-year comprehensive scholarships to highly ranked 
        teacher education institutions;

        e.  Require an aligned delivery system at the high school and 
        university level that has a proven high probability of 
        producing teachers prepared to teach the advanced academic 
        courses necessary for students to compete in a world economy. 
        Random delivery of a non-aligned curriculum at university level 
        will continue to produce teachers that are often ill prepared 
        to deliver the richness of advanced mathematics, science, and 
        engineering curriculum to our youth.

    The Federal Government can certainly help to actualize these 
efforts by establishing expectations and continuing to offer 
competitive funding opportunities to increase the effectiveness 
(knowledge and skills) of new and existing teachers.
    If we are to attract, educate, and retain the critical mass of 
talent necessary to keep the State of Texas and the country as a whole 
at the forefront of research, development and ground-breaking advances 
in science and technology, we must take decisive steps toward that end. 
In addition to those already cited, the following initiatives should be 
considered:

        a.  Increase the number of doctoral/post-doctoral fellowships 
        to promote increased numbers of terminal degree prepared 
        university faculty to support larger and/or additional 
        university undergraduate and Master's level programs, 
        increasing the probability that all students who meet entrance 
        requirements and have the desire to pursue a degree in science, 
        mathematics, technology, and/or engineering can do so;

        b.  Increase the number and dollar amount of funded research 
        grants and undergraduate, as well as graduate university 
        scholarships in critical mathematics, engineering, and science 
        fields;

        c.  Develop and implement strong information, advising, and 
        marketing programs for science, mathematics, technology, and 
        engineering careers in middle and high schools, targeting 
        females and racial minority students; and

        d.  Enlarge the pipeline of students who are prepared to enter 
        college and graduate with a degree in science, mathematics by 
        increasing the number of students who pass Advanced Placement 
        (AP) and International Baccalaureate (IB) science and 
        mathematics courses.

    From the National Academies of Science and Engineering:

        a.  Provide a federal tax credit to encourage employers to make 
        continuing education available to practicing scientists and 
        engineers;

        b.  Improve the visa processing for international students and 
        scholars (Complying with the 18-month limit regarding labor 
        certification is difficult in higher education); and

        c.  Provide a one-year automatic visa extension to 
        international students who receive doctorates in science, 
        engineering, technology, and mathematics to remain in the 
        United States to seek employment.

    The need for a working understanding of mathematics, science, and 
technology goes well beyond applying it in a career and shoring-up the 
workforce. Such knowledge and skills actually serve as tools for 
increasing productivity and enjoyment in everyday life, including but 
not limited to managing/operating a residence, participating in leisure 
activities and hobbies, traveling, volunteering, and maximizing 
entertainment options. Further, as the environment in which we live 
becomes increasingly complex as a result of a variety of human-induced 
conditions and natural phenomena, increased knowledge in, and 
application of, science, mathematics, and/or technology will be 
necessary for citizens to understand and respond quickly to changes 
that can significantly affect their short-term and long-range quality 
of life.
    Providing sufficient opportunities that allow students, 
researchers, educators, and employees to become and then remain current 
and competitive in science, mathematics, and technology is critical to 
living, working, and prospering in a rapidly evolving world. The first 
step to achieving this goal is to heighten stakeholder awareness of the 
importance and benefits of becoming and remaining current and 
competitive, followed closely by establishing reasonable but high 
expectations and measures of accountability; offering incentives (i.e., 
recognition; financial rewards and/or other benefits) as well as 
opportunities for career advancement; and providing access to free and 
reasonably priced quality training and professional development.
    In closing, I believe that what we have seen here today at the 
Martha and Josh Morriss Elementary School for Mathematics and 
Engineering is the result of open, collaborative efforts between and 
among a community willing to seek excellence, a university whose 
leadership embraced the wishes of the community, and a public school 
that was willing to take a risk to do what was needed as opposed to 
what has always been done. There is nothing profound or complex in this 
replicable model. It is the result of an integration of vision, 
tenacity, and the courage to do what is required to offer our children 
the chance to compete and lead in tomorrow's world.

 STATEMENT OF MR. MIKE LEHERR, PLANT MANAGER, ALCOA-TEXARKANA, 
                        TEXARKANA, TEXAS

    Mr. Leherr. I'm privileged to be here, Chairman Gordon, 
Ranking Member Congressman Hall, Congressman Ross and Members 
of the Committee. I appreciate this opportunity to present 
testimony. I'm Mike Leherr, Plant Manager of Alcoa Texarkana. 
Alcoa-Texarkana is a manufacturer of aluminum sheet. It's about 
a million square feet of highly sophisticated equipment, with 
350 employees. Alcoa produces aluminum for applications such as 
commercial trucks, trailers, boats, appliances, and general 
industrial applications. We supply customers throughout North 
America. Our workforce is made up of engineers, technicians, 
chemists, computer scientists, accountants, operators, and 
maintenance crafts. Approximately fifty percent of our salary 
workforce has professional technical degrees in the disciplines 
of science, technology, engineering and math. Additionally, 
many of our purchased services and products require technical 
training as well.
    As a business leader, I am responsible for insuring Alcoa 
remains competitive in today's rural environment. In fact, 
Alcoa-Texarkana directly competes all over the world. We are 
facing increased competition from foreign manufacturers with 
significantly lower wages. In order to remain competitive now 
and into the future, the workforce at Alcoa must continue to 
find ways to apply new knowledge, develop new technologies, and 
implement next generation manufacturing practices. The 
foundation starts with strong STEM education.
    Alcoa-Texarkana as well as other manufacturers in the area 
have increasingly found it more difficult to find and recruit 
highly skilled people with strong backgrounds in science, 
engineering and math.
    We find ourselves casting a wider and wider net to find 
highly skilled recruits. Additionally, we are seeing an 
increasing number of requests for non-U.S. citizens with each 
professional posting. In fact, in our last engineering 
position, 34 percent of the applicants were educated outside of 
the United States. Twenty-five percent of the applicants were 
requesting visa sponsorship. Zero percent of the applicants 
were local.
    It is evident that the local and national availability of 
highly skilled people is getting smaller. A strong STEM 
competency goes beyond recruiting for technical professions. In 
order to compete, Alcoa-Texarkana relies on all our employees 
applying statistical methods, problem solving or re-engineering 
efforts. It's not uncommon for operators and maintenance craft 
people to redesign and re-engineer. Our ability to succeed now 
and compete into the future greatly depends on our ability to 
recruit people with strong STEM knowledge.
    Alcoa-Texarkana plays a key role in the community through 
its direct and indirect economic impact, Alcoa Foundation 
grants, and volunteer activities through our ``Neighbors 
Committee.'' Communities matter to Alcoa. Our future is linked 
to the future of our community. Our future is also linked to 
the availability of a skilled workforce. It's because we 
understand this link that we support STEM education efforts.
    Alcoa-Texarkana has played a role in educational quality 
encouraging young people to study math and science. These 
efforts include:

At the university level, Alcoa was one of the first companies 
to invest in the campaign to bring the College of Engineering 
and Computer Information Sciences to A&M-Texarkana. Alcoa 
Foundation grants to develop a Bachelor of Science Degree 
program and purchase equipment for the College.
    At the high school level, Alcoa engineers participate in 
``Learning for Life'' programs where engineers discuss science 
and technology careers with eighth and ninth graders. 
Additionally, Alcoa engineers lead ``Adopt a Class'' through 
Junior Achievement.
    At the elementary level, Alcoa gave Foundation grants to 
support the math in the Magnet School of Arkansas with the 
purchase of interactive white boards. We also provided a grant 
for Morriss Elementary School for the purchase and use of high 
powered telescopes. It is our belief that the use of such 
equipment will help young children get enthused about math and 
science by seeing it in use.
    I, as well as many here, want to see Alcoa-Texarkana be 
here for a long time. I also want to see other businesses in 
this community prosper into the future, giving students the 
tools and passion to learn more about science technology, 
engineering and math, which are an essential piece for making 
that happen.
    Increasing STEM education is critical for the ability of 
all Americans to compete. I applaud the leadership of Texarkana 
Independent School District, A&M-Texarkana and the community 
for acting and bringing STEM education to Texarkana. I also 
applaud this committee for its efforts in enhancing American 
competitiveness and the actions it's taking to insure high-
quality life for our children and grandchildren. Thank you.
    Mr. Hall. I thank you, sir.
    [The prepared statement of Mr. Leherr follows:]
                   Prepared Statement of Mike Leherr
    It's a privilege to be here Chairman Gordon and Ranking Member 
Congressman Hall and all the Members of the Committee for this 
opportunity to present testimony on the importance of enhancing 
Science, Technology, Engineering and Mathematics education.
    I am Mike Leherr, Plant Manager of Alcoa-Texarkana Works. Alcoa-
Texarkana is a manufacturer of aluminum sheet. With highly 
sophisticated mills and equipment, we convert predominately scrap 
aluminum into a finished rolled product for use in commercial trucks, 
trailers, boats, appliances, automotive, and general industrial 
applications. We supply customers throughout North America. Our 
workforce is made up of Engineers, Technicians, Chemists, and Computer 
Science professionals, Accountants, Operators and Maintenance crafts. 
Approximately 50 percent of our salary workforce has professional 
technical degrees in the disciplines of Science, Technology, 
Engineering or Math. Additionally, many of our purchased services and 
products require technical training and qualifications as well.
    As a business leader, I am responsible for ensuring that Alcoa-
Texarkana remains competitive in today's global environment; in fact, 
Alcoa-Texarkana directly competes with manufacturing facilities all 
over the world for our business. In order to remain competitive, now 
and into the future, the Alcoa-Texarkana workforce, as well as other 
businesses, must continue to find ways to apply new knowledge, develop 
new technologies, and implement next generation manufacturing 
practices. The foundation of this future must start with strong STEM 
education. Technology change and globalization have driven the need for 
higher order skill sets for today's and tomorrow's businesses.
    Alcoa-Texarkana, as well as other manufacturers in the area, has 
increasingly found it more difficult to find and recruit highly skilled 
people with strong background in Sciences, Engineering, and Math. We 
find ourselves casting a wider and wider net to find highly skilled 
recruits. We also are seeing an increasing number of requests to 
sponsor visas for non-U.S. citizens with each professional posting. It 
is evident that the local and national availability of highly skilled 
people with is getting smaller.
    A strong STEM competency is not only needed for our technical 
professionals but also our Operators and Maintenance crafts people. 
Alcoa-Texarkana continues to increase engagement of employees and rely 
on all our employees applying statistical methods, problem solving, re-
engineering efforts. It is not uncommon for Operators and Maintenance 
crafts people to re-design equipment and processes. Our ability to 
succeed and compete into the future greatly depends on our ability to 
recruit people of all disciplines with strong STEM knowledge.
    The STEM education program that has been developed here at the 
Martha and Josh Morriss Mathematics and Engineering Elementary School 
is exemplary. I believe this school will provide students with the 
knowledge, ability and most importantly, the enthusiasm and desire to 
excel in Science, Technology, Engineering and Math.
    Alcoa-Texarkana plays a key role in the community through its 
economic impact, Alcoa Foundation grants, and volunteer activities 
through our ``Neighbors Committee.'' Communities matter to Alcoa. 
Communities hold our franchise to operate and we need their resources, 
infrastructure, markets, and workforce to thrive. In turn, we owe them 
our integrity, careful stewardship of the environment, our ability to 
provide jobs and community support. Our future is linked to the future 
of our community. It is because we understand this linkage that we 
support STEM education efforts. Alcoa-Texarkana has played a role in 
educational quality and encouraging young people to study math and 
sciences. We have actively supported STEM education at all levels. 
These efforts include:

        <bullet>  At the University level, Alcoa-Texarkana was one of 
        the first companies to invest in the campaign to bring the 
        College of Engineering and Computer Information Sciences to 
        A&M-Texarkana. Alcoa Foundation Grants were used to develop a 
        Bachelor of Science Degree program and purchase equipment for 
        the College of Engineering and Computer Information Sciences 
        Program at Texas A&M-Texarkana.

        <bullet>  At the High School level Alcoa-Texarkana Engineers 
        participate in ``Learning for Life'' programs where Engineers 
        discuss science and technology careers with 8th and 9th grade 
        students. Additionally, Alcoa-Texarkana Engineers lead ``Adopt 
        a Classroom'' through Junior Achievement.

        <bullet>  At the Elementary level, Alcoa-Texarkana and the 
        Alcoa Foundation have given foundation grants to support Math 
        and Engineering Magnet School in Arkansas. We also provided a 
        grant to the Morriss Elementary School for the purchase and use 
        of high powered telescopes. The use of such equipment will help 
        young children get enthused about the sciences by seeing it in 
        use. Additionally, Alcoa-Texarkana has also been in discussion 
        with Morriss Elementary about a working exhibit on renewable 
        energy.

    I, as well as many here, want to see Alcoa-Texarkana be here for a 
long time. Giving students the tools and passion for learning more 
about science, technology, engineering, and math will be a vital piece 
into making that happen. Increasing STEM education is critical for the 
ability of all Americans to compete globally.
    I applaud the leadership of Texas Independent School District, A&M-
Texarkana, and the community for acting and bringing enhanced STEM 
education to Texarkana. I also applaud this committee for its efforts 
in enhancing STEM education in this country.
    Thank you.

                       Biography for Mike Leherr
    Mike has been with ALCOA for 17 years. He began his professional 
career as an engineer at Alcoa's Warrick Operations. He held a variety 
of manufacturing, engineering, and maintenance assignments at Alcoa's 
Warrick operations until 1996 when he accepted a position overseas in 
the company's Swansea, Wales facility as Hot Mill Production and 
Maintenance Manager. From 1999-2005 Mike held a variety of progressive 
Plant Management and Director of Manufacturing roles in different 
divisions within ALCOA. In July 2006, Mike was named Plant Manager of 
Alcoa-Texarkana Works.
    Mike graduated from the University of Notre Dame with a Bachelor of 
Science Degree in Mechanical Engineering. Mike is active in a variety 
of charitable, educational, and civic activities. Mike serves on the 
board of the United Way of Greater Texarkana, serves as a member of the 
Blue Ribbon Committee for the Texarkana Independent School District. 
Mike is also a baseball and soccer coach for youth activities in the 
area.

    Mr. Hall. Now we recognize David Smedley.

STATEMENT OF MR. DAVID SMEDLEY, SCIENCE EDUCATOR, NORTH HEIGHTS 
            JUNIOR HIGH SCHOOL, TEXARKANA, ARKANSAS

    Mr. Smedley. Thank you, Chairman Gordon. Ranking Member 
Hall, and Congressman Ross. My name is David Smedley. I teach 
seventh and eighth grade science at North Heights Junior High 
School on the Arkansas side. I am fresh out of the trenches. I 
was there this morning. Some of the things I may say, I hope do 
not sound abrasive, but this is the way it is in the trenches.
    The major problem that limits our teachers in the middle 
school years and the primary years is the broad-base of 
knowledge and partnerships of life and physical science. In 
addition, time demands placed on teachers during non-school 
hours for extracurricular activities and responsibilities adds 
stresses and pressures that have nothing to do with aiding the 
teacher in presentation of materials. In the middle school 
years many teachers are specializing in one of the three areas 
of science, life or physical science and do not feel 
comfortable and are not totally prepared to present lessons in 
the other areas of science.
    In the primary school years, most teachers are not equipped 
neither academically to, nor experientially to present the 
science contents. It's my opinion that the single most 
important step that the Federal Government could take to 
improve K-12th grade science education is to nationally align 
the teaching of science content in the United States. The 
situation needs to be so that if a student moves from Colorado 
to Arkansas or any other state that the same science concepts 
are being taught at approximately the same time of year and to 
the same level of understanding at the same grade levels.
    Advanced classes should also be made available. A 
nationwide science curriculum could be posted on the Internet 
for all schools to use. As students progress in the curriculum 
standardized test that all students in America would take would 
produce data used to award scholarships or grants, to help 
students attend colleges, universities, vocational schools or 
some specialty school.
    In order to produce students that can compete in the 
international stage of science a greater degree of support in 
the form of resources, training, and organization needs to come 
from the Federal Government. This support must not be in the 
form of regulations and bureaucracy, but must be pragmatically 
directed at how these decisions will affect the individual 
student sitting in our classrooms.
    Our school is a NASA Explorer School and receives much 
quality training in resources to help students prepare for the 
sciences. The most important and effective components of these 
programs is the resource and support.
    After interviewing my students this week, telling them that 
I was going to come to speak on these topics, their opinion on 
how to keep them motivated was to give them engaging, hands-on 
activities. They also said that inspired teachers, they need 
inspired teachers, not just someone who's presenting the 
material in a very mundane way.
    Students in today's classrooms are not the same type of 
animal they were even a few short years ago. Technology is a 
must in order for us to truly prepare our students for this new 
world and make them feel they are one of society's major foci.
    Many activities that occur in my classroom are student 
generated. As we were studying Newton's Laws of Motion one of 
the classes asked if they could construct a trade machine. I 
didn't pretend to know what the students were asking, but 
instead allowed our students to use our Promethean Board large 
screen in front of the class and research the topic on the 
Internet. As the entire class reviewed the research on the 
large screen, greater interest was generated. To make the story 
short, we constructed it and were able to actually experience 
the Laws of Physics rather than just read about and work the 
math problems related to this usually boring and technical 
topic.
    Other activities that have been huge successes in the 
middle school include producing products such as solar powered 
cars, hydrogen fuel cell cars, robotics, bridge building, basic 
and advanced dissections, GPS, global positioning systems 
units, plant growth and CGC, electric motors, electric circuits 
and model rocketry. In all of these units, direct application 
of the learning can be pointed out easily. When the students 
are guided in the construction of a natural working model such 
as a robot they're excited and motivated to have achieved 
success and can see some concrete product as evidence.
    Another component that I believe helps me to motivate my 
students is I try to connect my sciences to the other content 
areas the students are taking. I try to build community in the 
classroom. Students have to feel comfortable. They have to know 
that their learning is connected to another student's learning. 
So, pure teaching and pure learning takes place among our 
students as they work cooperatively in small groups.
    This builds respect for both the teacher and learner in 
this pure teaching model. As the year progresses, the teacher 
and the learner roles are experienced by all in some manner, 
and you don't know what you don't know until you try to teach 
someone or explain it to someone else. And as these students 
help each other in their problem-solving process in these 
hands-on activities, they gain a respect for themselves as well 
as each other.
    Parents could better support our schools if they would 
simply not put down the public school system in general. 
Parents need to make sure their students have the simple 
necessities of food and rest that young people need to learn.
    Parents can try to provide a stable environment by 
remaining the primary caregiver for the child and not placing 
the responsibilities of raising the child on some aunt, uncle, 
grandparent or a babysitter. The community can help if they 
become involved in providing learning activities outside the 
school building.
    Businessmen and women could come speak to students and show 
how their job as well as the social skills of these students 
need to learn.
    In summary, what I need as a public school teacher is 
support, resources and training, up-to-date training, and 
continual training. It's hard to keep up with all these 
technological advances and methods of presentation. Some of the 
best teachers that we have that can contact with the students 
the best are left behind as veteran teachers with technology. 
New teachers are coming in, but they don't have the experience 
and can't make the same type of contact as the older teachers, 
so we need up to date and on-going training. Thank you very 
much.
    Mr. Hall. I thank you. We needed you as a part of this 
panel to complete the circuit for the information that's 
needed. You're at the helm. You're fresh there. Thirty, 45 
minutes ago you were probably with your students. We thank you 
for coming here.
    [The prepared statement of Mr. Smedley follows:]
                  Prepared Statement of David Smedley

1.  What are the major problems that limit the performance of students 
and teachers, and what do you feel is the single, most important step 
that the Federal Government should take to improve K-12th grade math 
and science education? What involvement have you had with math and 
science education programs at the National Science Foundation or other 
federal agencies as well as those in the State of Arkansas? What are 
the most important and effective components of these programs?

    The major problem that limits the performance of students in math 
and science is mostly the attitudes of the students themselves. 
Students seem to think that learning is always going to be quick and 
easy. When the content is new or challenging and the students find it 
difficult, most of the time the students simply give up or quit. The 
major problem that limits the performance of the teachers in science is 
the broad base of knowledge required to teach life, earth, or physical 
science. In addition, time demands placed on teachers during non-school 
hours for extra-curricular responsibilities add stresses and pressures 
that have nothing to do with aiding the teacher in the presentation of 
academic materials. In the middle school years, many teachers have 
specialized in one of the three areas of science and do not feel 
comfortable and are not totally prepared to present lessons in the 
other areas of science. In the primary school years, most teachers are 
not equipped neither academically nor experientially to present the 
science content. State mandated assessments in the State of Arkansas 
have just now, in the last three years, been put in place for our 
students. This assessment does not include any lab performances to be 
done by the students. It is my opinion that the single, most important 
step that the Federal Government should take to improve K-12th grade 
science education is to nationally align the teaching of science 
content in the United States. The situation needs to be so that if a 
student moves from Colorado to Arkansas or any other state that the 
same science concepts are being taught at approximately the same time 
of the year and to the same level of understanding at the same grade 
levels. A nationwide science curriculum could be posted on the Internet 
for all schools to use. As students progress through the curriculum, 
standardized tests that all students in America would take could 
produce data which then could be used to award scholarships or grants 
to help students attend colleges, universities, vocational schools, or 
some specialty school. In order to produce students that can compete in 
the international stage of science, a greater degree of support in the 
form of resources, training, and organization must come from the 
Federal Government. This support must not be in the form of regulations 
and bureaucracy, but must be pragmatically directed at how these 
decisions will affect the individual student sitting in our classrooms. 
My experiences with the National Science Foundation are very limited. 
Associations with our local educational coop, the Arkansas State 
Science Teachers Association, and the National Science Teachers 
Association provide our teachers with opportunities for training and 
limited resources to aid in the teaching of science content. Our school 
is a NASA Explorer School and receives much quality training and 
resources to help present science to the students. The most important 
and effective components of these programs is the resource support.

2.  How can we spark a greater student interest in math and science 
education? What can we do to ensure that student interest in math and 
science does not wane as they progress through our formal system of 
education? Specifically, how do you keep your junior high students 
motivated and excited about STEM?

    After interviewing my students this year concerning this question, 
I found that their opinion on how to motivate students in the sciences 
and keep their interest points to the fact that providing engaging 
activities is the key. Students in today's classrooms are not the same 
type of animal they were even a few short ten years ago. Technology is 
a must in the classroom in order for us to truly prepare our students 
for this new world and make them feel that they are one of society's 
major foci. Our society places its money where the priorities lie and 
our schools are being cut short. Teachers that are inspired about their 
content was also mentioned as a factor in motivating the students 
themselves. It is my opinion that teachers must be ready to ``perform'' 
for the students.
    My personal experiences in teaching have shown me that if students 
can see a direct link between what they are studying and some real-life 
situation, then they have more motivation to learn. Guest speakers, 
field trips, and special presentations by other professionals in their 
field tend to increase the level of interest in students at all grade 
levels. I keep my junior high students motivated and excited about STEM 
by showing the connections between what I ask them to do and what they 
are going to need to be able to do when they enter the job market and 
adulthood. Many activities that occur in my classroom are student 
generated. As we were studying Newton's Laws of Motion, one of the 
classes asked if they could construct a trebuchet. I didn't pretend to 
know what the students were asking, but instead allowed a student to 
use the Promethean Board and research the topic on the Internet. As the 
entire class viewed the research on the large screen, greater interest 
was generated. To make the story short, we constructed our trebuchet 
and were able to actually experience the laws of physics rather than 
just read about and work the math problems related to this usually 
boring and technical topic. I try to bring the teaching to life in my 
classroom. Other activities that have been huge successes are: solar 
powered electric cars, passive solar ovens, robotics, bridge building, 
basic and advanced dissections, GPS (global positions systems) Unit, 
plant growth from seed to seed, electric motors, electric circuits, and 
model rocketry. In all of these units, direct application of the 
learning is pointed out. When the students are guided in the 
construction of an actual working model such as a robot, they are 
excited and motivated to have achieved success and can see some 
concrete product as evidence. In these activities, students are 
required to measure, read and comprehend, and move through the problem 
solving process in order to succeed. This is another component that I 
believe helps me to motivate my students. That is, I try to connect the 
sciences to the other subjects the students are taking. Completing a 
reading comprehension activity with the use of science content and 
calculating a percentage grade requires the students to engage their 
literacy and math skills in daily class activities. At the beginning of 
the school year and various points throughout the year, I try to build 
community in the classroom. The students must be made to feel 
comfortable in the classroom in order to learn. The students must feel 
that both their learning and the learning by others in the classroom 
are connected. Peer teaching and learning takes place among the 
students as they work cooperatively in small groups during many of the 
learning activities. This builds respect for both the teacher and the 
learner. As the year progresses, the teacher and the learner roles are 
experienced by all in some manner. In summary, I keep my students 
excited and motivated about STEM by being real and understanding with 
the students on a personal level and by being challenging and inspiring 
on a professional level.

3.  What challenges do you face in improving student achievement in 
math and science education? How can parents, businesses, the community, 
and the government better support you in your efforts to raise student 
proficiency in STEM?

    The challenges faced by teachers in improving student achievement 
in math and science education are multi-faceted. Concerning the 
assessment tool that indicates the level of achievement in the State of 
Arkansas, I feel that the data obtained from this exam is totally 
unreliable. It a basic learning principle that states in order to learn 
the learner must be ready to learn and see the need to learn. We are 
assuming that students will perform their best when given the 
opportunity just because of their own intrinsic values. Students need 
to be given a reason to pass this test. Retention at grade level or 
remediation before passing to the next grade level might possibly work. 
It is very assuming and in my opinion a very false assumption for us to 
think that young people will perform at a high level of achievement 
without a reason other than it is what they ``should'' do! Our schools 
are being held accountable to a high degree relative to the test scores 
of the students, but we are not placing any accountability on the 
students. Challenges of the mind-set of the student when they arrive at 
school from a family setting that may not be a peaceful or a healthy 
environment also require attention and understanding from the teacher 
as it presents its own set of challenges.
    Parents could better support the schools if they would simply not 
put down the public school system in general. Parents need to make sure 
that students have the simple necessities of food and rest that young 
people need to be ready to learn. Parents could try to provide a stable 
environment by remaining the primary care-giver for the child and not 
placing the responsibilities of raising the child on some aunt, uncle, 
grandparent, or baby sitter. The community could help if they would 
become involved in providing learning opportunities outside the school 
building. Business men and women could come and speak to the students 
about how what they are learning in the classroom will be applied in 
the job market. These individuals could also make the students aware of 
the social skills and behaviors that will be required to become a 
successful employee in their chosen field. As stated earlier, I feel 
that the government needs to step in and provide positive leadership 
and assistance for the states through finances, training, and academic 
alignment of the sciences in our public schools.

4.  What elements of your pre-service or in-service training have been 
most helpful in meeting the daily demands of working with students, 
developing innovative classroom strategies, and delivering content-rich 
instruction to students of all levels and abilities? As a professional 
teacher, what partnerships or collaborations with local colleges or 
universities have been most helpful to you in terms of access to 
materials or professional development?

    One of the important elements of my in-service training that has 
been most helpful in meeting the daily demands of working with students 
has been the National Science Teacher Conventions that I was able to 
attend. This gathering of science educators from all levels of 
education has provided me with many, many tools in my box. I have been 
able to use methods and techniques of presentation that were presented 
during these conventions. I have made connections and created a support 
network from teachers all over the United States. Stimulating 
activities and projects that I have modified have proven very 
successful for my students. These ideas and innovations were all 
initiated from meeting with other professionals in these workshops as 
well as informally in the down time of the conventions.
    In-service trainings that keep veteran teachers up on the latest 
technologies that are available for the classroom have been most 
valuable. As technology has progressed over the last ten to twenty 
years, some teachers have been overwhelmed by new methods of using the 
technology to present content. It is vital that science teachers at all 
levels keep up to date on current technologies and information. This is 
also something that the government could help to provide as they ensure 
that good, quality in-service workshops are available for all teachers 
at the appropriate grade levels. At this time, we do not have any 
partnerships with the local colleges and universities to help with 
access to materials or professional development.

                      Biography for David Smedley

Education:

        -  High School Diploma--Arkadelphia, AR--1973

        -  Honorable Discharge--United States Marine Corp--1975-79

        -  BSE--Henderson State University--1981

        -  MSE--Henderson State University-1989

        -  Areas of Certification--Arkansas

                  Biology/General Sciences, Health, Physical Education, 
                Coaching

        -  Certified by the College Board for Middle School Science

        -  Certified by International Baccalaureate Program--Middle 
        Years Program

        -  Arkansas Leadership Academy trained

Career-Related Experience

        -  Science Instructor--Life Science, Earth Science, Physical 
        Science, Biology--Delight High School--1981-90

        -  Head Baseball Coach, Asst. Basketball Coach--Delight High 
        School--1981-90

        -  Health Instructor--12th Grade--Delight High School--1981-90

        -  Anatomy & Physiology--organized and implemented this new 
        curriculum into Delight High School as standards created the 
        need for new science content Offerings--1986-90

        -  Science Instructor--8th Grade--North Heights Jr. High 
        School--Life-Earth-Physical--1995-2000

        -  Science Instructor--Earth Science--North Heights Jr. High 
        School--2000-05

        -  Science Instructor--Life Science--North Heights Jr. High 
        School--2000-05

        -  Science Department Chairperson--North Heights Jr. High 
        School--1997-2005

        -  Science Instructor--North Heights Jr. High School--
        International Baccalaureate/Advanced Placement Program--2005-08
           Integrated curriculum--Life, Earth, and Physical Science

Other Work Experience:

        -  Arkansas Mentor Program for novice teachers training for the 
        Praxis III Assessment

        -  Team manager for Destination Imagination teams at the State 
        level

        -  Co-Chair for the North Heights Leadership Team

        -  Creator and sponsor for the North Heights Chess Team

Grants and Awards:

        -  University of Wisconsin--Orbital Space Laboratory--(2000-05) 
        $2,500

        -  Teacher Take Wing Grant (2000-2002-2007) $1,500

        -  American Power Company (2005 and 2008) $1,000

        -  KTBS One Class at a Time Grant (2003 and 2008) $2,000

        -  Weyerhaeuser Environmental Grant (2005-2006-2007) $1,500

        -  Texarkana Arkansas Education Foundation Grant (2004 and 
        2008) $2,500

        -  North Heights Jr. High School Teacher of the Year--(2003 and 
        2008)

        -  Recruited $1000 in funds from local businessmen to support 
        the chess team

    Mr. Hall. I've recognized the Mayor and former Mayor. Were 
there other public officials? I thought I saw Judge Carlow come 
in here a while ago. Judge, are you here? Stand up and let us 
recognize you.
    He works day and night. I don't know what he does for the 
county here, but I know that he works for people in this county 
because he's working now to get some of the Red River land. The 
Secretary of the Army is going to grant it to somebody. He's 
got a group that's pushing hard to get it. They pushed right up 
to the brink several times and almost had it, and they're still 
pushing.
    One other thing, as Mike Ross knows, there was a provision 
a year and a half ago, in the energy bill to encourage every 
state to build a refinery. Refinery is one of the major reasons 
our gasoline is going up to four and five, six, seven, eight, 
maybe ten bucks before it's all over if we don't do something 
about it. It had some benefits for each state and encouragement 
for each state to build a refinery. We're trying to be the one 
to build that refinery right here. The judge is giving us good 
leadership in that.
    As a matter of fact, somebody pushed him around a little 
bit and told him well, you don't have access to ocean travel. 
He said yeah, we don't have any hurricanes either. Pretty dog-
gone good answer. Pretty tough guy. Are there other public 
officials here? Thank you.
    We have Mr--now we get to ask some questions for five 
minutes here, and y'all can put the clock on us. We thank you 
for your testimony. It was well given. We're grateful for it.
    We have--Tom Pickens is one of the additional Members to 
the panel. I guess I want to ask him to expand on the K-12 
education and how important it is to have students as prepared 
as these young students look like apparently are going to be. 
Can you give us a little--and what you think about what you've 
seen today in Texarkana, Texas.

     STATEMENT OF MR. THOMAS B. PICKENS, III, CEO, SPACEHAB

    Mr. Pickens. Thank you, Congressman. As the CEO of 
SPACEHAB, we are one of the very first, I think we are the 
first commercial provider of space-related services to the 
International Space Station via the Space Shuttle.
    In reviewing and going through the school today, I'll use a 
contemporary term, I was blown away. I have never seen anything 
quite like this, the importance of it. I guess the part that 
really caught me by surprise, and very sincerely by surprise, 
was the robotics lab. When we look at space and where we're 
going and doing in space, I recognize as a leader of this 
company SPACEHAB that that is really the future of engineering 
if, it's the future of mathematics, it's the future of science. 
That is our Magellan trap as future generations trek forward. 
To see these youngsters in here learning how to use robotics, I 
know because our analysis ended up telling us so, that that is 
also a big part of that future in space.
    The radiation problems there in space are insurmountable. 
They're almost impossible to solve. We'll probably figure it 
out somehow, but so far we haven't. That means that robotics is 
going to do most of everything that we have as a future in 
space. The work that was being done at the school was right in 
line with what the future of space and space engineering is 
going to be.
    Mr. Hall. Thank you.

                               Discussion

    Mr. Hall. I yield as many minutes as the Chairman would 
like to have to make any inquiry to the panel or Mr. Pickens. 
It's important that giants in the industry come to Texarkana, 
Texas to see what's happening here and take that message back 
to other places you go. We thank you for your time which is 
very, very valuable, and Dr. Stripling for your trip down here 
to let the word go forth as to what you see here and what 
people can do when they forget who gets the credit for it and 
just want a product for their children by golly. Thank you 
again for coming, and others of you who are local here, you're 
on the job day in and day out. You're elected so you're bound 
to be the best.
    I yield five minutes to the Chairman. By golly, every now 
and then he holds me to five minutes in Washington. I'm going 
to put the clock on him. If he goes over I won't be too hard on 
him.
    Chairman Gordon. Thank you, Mr. Hall. One of the things 
that we learned from the report, Rising Above the Gathering 
Storm, was really disturbing, and that is that approximately 63 
percent of the math teachers in our middle schools have neither 
a certification to teach math or a major in math. Ninety-three 
percent of the physical science teachers have neither that 
certification or a major, so it's hard to teach a course and 
have passion in a course if you don't have that core 
background, no matter how good a teacher you might be.
    I say that not doubting teachers. My mother and father were 
both teachers. My father was a farmer and after World War II he 
went to school on the G.I. Bill. Then my mother was working at 
the cafeteria. He got the last teaching job at Smyrna High 
School in our county.
    We passed the COMPETES bill with an effort to try to take 
care of that. Part of what we did is we set up a scholarship 
for those students that would go into math or science and 
education and agree to teach for five years. We also set up 
scholarships for teachers like my father who would come back in 
the summers to get that certification or AP or whatever it 
might be. And that's good. I think it's positive, but we have 
to get kids interested in that education beforehand. So, Dr. 
Marrett I know that NSF is doing a lot of research on those 
types of teaching processes and professionalism, but what are 
you doing to get that out to the thousands of school districts 
and schools all across this country?
    Dr. Marrett. We hope to do a lot more. A hearing like this 
helps a lot as we both can explain some of the things we are 
undertaking, but also hear what else we need to be doing.
    We have enhanced our efforts to explain and get more people 
involved in STEM education. The program you just mentioned, the 
Noyce Scholarship Program is in fact a program that takes 
students during their undergraduate years who are majoring in 
the STEM areas and seeks to attract them into the teaching 
profession. That's been a very interesting and successful 
program. We could certainly have more places asking about and 
applying to that program than in fact takes place right now. So 
we are seeking to enhance information about an effort like 
that.
    We also have a program at the graduate level. There is a 
program, Graduate Teaching Fellows for K-12, where we take 
graduate students who are in the STEM areas and who want to 
have a chance to work with K-12 teachers. They then move into 
classrooms. So, what we've found out from that is that they 
learn a lot about the whole teaching experience, about the 
challenges, about the opportunities.
    In many respects we have a number of efforts underway in 
which we would appreciate even more inquiries being made of us 
and suggestions about new efforts or the ways in which the ones 
we are undertaking could be improved. We invite at all times 
comments and suggestions about our portfolio.
    Chairman Gordon. I think that's one of our challenges, not 
only to create these programs, but as we all know the tree 
doesn't fall if you don't hear it. Often times it's those 
poorer school districts that are the ones that have the least 
resources to be able to find that.
    Also, Mr. Russell, when you were setting up this school 
here, you were able to cast out a wide net and bring in special 
teachers. As you said, they were required to be master 
teachers. That's fine and good for here, but what about all the 
other schools? What are your suggestions on how we can raise 
that level of teacher education in the schools that aren't the 
model?
    Mr. Russell. I think it is the most critical thing because 
we all know a nice facility like this, all of the nice supplies 
and curriculum is wonderful, but we also know the most 
important thing is the highly qualified classroom teacher. 
Bottom line, if you have that great-driven teacher with 
passion, they can be in an importable building with a box of 
chalk and they are going to be extremely successful. So, that 
is key number one. And that's an initiative for Texarkana 
I.S.D. We're not limited just to this school. Number one, we 
pay all of our teachers more if they obtain that master 
certification. On top of that, we actually pay----
    Chairman Gordon. That's master certification in whatever 
course? It could be history or whatever it is?
    Mr. Russell. Absolutely. If you have your Master's degree, 
you're on a higher pay scale. Obviously we value education and 
know that it does make you a better person the more you 
receive.
    We also pay for the teachers to get their Master's degree. 
We are doing 20 to 25 a year in the district where they enter a 
program where the district actually pays for that Master's 
program. It does that for our Morriss teachers. It also does it 
for district wide. So again, that's just a great length to 
great teaching that we have seen.
    Another one, the great partnership with Texas A&M and 
Texarkana. They actually developed a curriculum of instruction 
Master's degree just for the department of the school district 
and then added this Master Mathematics Certification for the 
teachers at Morriss.
    We all know people that are incredibly smart that can't 
teach very well, so not only are we teaching the teachers more 
about the subject and experts on that, the University has also 
designed delivery courses so when they have that higher 
knowledge they can bring it down to the students and make it 
successful. So we recognize that as value added across the 
district, and that's exactly what we're doing and would highly 
recommend that to anyone. Our master teachers are the ones that 
typically stay in the district a longer amount of time. They're 
happier.
    I think just like the kids sometimes that are afraid of 
just the words math and science to go into the hard subjects, I 
think it's true for adults too. I think when you have an 
education program that is going to help your adults get more 
comfortable in what they're teaching then you just see more 
success all the way around.
    Chairman Gordon. Thank you.
    Mr. Hall. I recognize Mr. Ross for five minutes. Mr. Ross.
    Mr. Ross. Thank you. Thank you Ranking Member Hall and 
Chairman Gordon. As you look at this panel, we've got someone 
with NSA, we've got a school administrator, we've got someone 
associated with the local college, a manufacturer, which is 
very important, someone that's in the space stuff, Mr. Pickens.
    I meant to say this in my opening statement, I want to 
thank David Smedley for taking time out of the classroom to be 
with us today. He was my contribution for the panel. We're 
delighted to have him from the Arkansas side. As Mr. Hall 
mentioned, he's a renowned science teacher at North Heights 
Junior High in Texarkana, Arkansas, has a Bachelor's and 
Master's degree from Henderson State University, which is also 
in my Congressional district Arkadelphia, and has been in the 
field of science for 25 years.
    One of the things that I think is important to know is that 
this year he was named North Heights Junior High School teacher 
of the year, an award he also received back in 2003. I think 
that speaks volumes about you Mr. Smedley and your commitment 
to our children. If you were a Member of Congress, and I hope 
you don't want to be any time soon. If you were a Member of 
Congress, what are one, two or three things that you think from 
a federal level that we could do to try and help provide the 
teachers with whatever it is they need to help grow a new 
generation of innovators in this country and really get them 
focused on the maths and sciences?
    Mr. Smedley. Could you repeat that question? Thank you. 
Thank you. I think that--I don't know if it's actually a 
feasible idea, but level the playing field. As I came to this 
school this morning and walked up here, I had to ask, ``Is this 
a public school?'' This school is awesome, but it's not the 
public school that the majority of our schools are. The 
majority of our schools are plagued with violence and drugs, 
and this is middle school. These are middle schools, but 
resource wise if we could just level the playing field, the 
Texas side versus the Arkansas side.
    I was raised up the road aways and didn't really know until 
I came down here the--it's not--well, it's not a rivalry, it's 
not a hatred, but it's a very strange situation that goes on 
here as far as seeing the difference in resources between the 
two states.
    Arkansas is a wonderful state and I love it very much, but 
to think that if I were to come across the street and do the 
exact same job for $5,000-$10,000 more, money is an enticement. 
If we could just level the playing field somehow as far as in 
numbers, resources and pay, pay scale.
    This Internet curriculum that I suggested, that would--that 
would get all of our kids on the same page at the same level as 
far as science content goes. I really feel like the Federal 
Government's--and again, I'm not sure of all the technicalities 
or whether they could actually do it, but the Federal 
Government I think could come in with a curriculum with 
activities.
    There is a company called Science Education Public 
Understanding Program which has kits for each content area, and 
our teachers do not have resources. And I thank God that I'm 
not in that portable building with the box of chalk anymore. I 
was there. I was there, and I was the resource.
    Resources and continual training and somehow level the 
playing field so that poorer states and poorer students do 
not--there are a lot of students and scientist that we are 
losing simply because they're poor and they can't afford to go 
to college. They don't have that privilege or that honor. They 
didn't get that scholarship they needed, or one thing or 
another happened. Level the playing field between the states 
and encourage the teachers to continue their trainings to stay 
up to date.
    Science, you know, it changes so fast nowadays. I tell my 
students in the classroom what was science fiction when I was 
their age is science fact today. I try to inspire them into 
futuristic thinking and say what is your science fiction today 
that you dream might be science fact tomorrow.
    So, those things that I think you could do, level the 
playing field, continual training. Thank you.
    Mr. Ross. I see the red light Mr. Chairman, so I assume my 
time is up.
    Mr. Hall. I kept in mind that you would have the gavel over 
the entire Congress. I will let you go as long as you wanted 
to.
    I looked at Dr. Marrett when I thanked Dr. Stripling a 
while ago for coming so far. I had Dr. Stripling on my mind. I 
was going to ask her some questions. I apologize to one of you 
if--I looked at one and was thinking about the other one. That 
happens a lot to guys my age.
    As a matter of fact, can I take time to tell a story Mr. 
Chairman? Show you how people can make mistakes. There was a 
Michigan woman and her family vacationing in a small community 
one time where Paul Newman and his family often visited. One 
Sunday morning the woman got up early to take a long walk, and 
after a brisk five-mile hike she decided to treat herself to a 
double dipped chocolate ice cream cone. She hopped in the car 
and went straight to the combination bakery ice cream parlor. 
There was only one other patron in the store, Paul Newman 
sitting at the counter having a doughnut and coffee.
    The woman's heart skipped a beat as her eyes made contact 
with those famous baby blue eyes. The actor nodded graciously 
and the star-struck woman smiled. Pull yourself together she 
said to herself. You're a happily married woman with three 
children. You're 45 years old, not a teenager.
    The clerk filled her order and she took the double dipped 
chocolate ice cream cone in one hand and her change in the 
other. Then she went out the door avoiding a glance in Paul 
Newman's direction. When she reached her car she realized she 
had a handful of change, but her other hand was empty. Where is 
my ice cream cone? Did I leave it in the store?
    Back in the store she went, expecting to see the cone still 
in the clerk's hand or in a holder on the counter or something. 
No ice cream cone was in sight. With that she happened to look 
over at Paul Newman. His face broke into his familiar warm 
friendly grin. He said to the woman, ``You put it in your 
purse.'' So I know--Dr. Marrett, I know you're not Dr. 
Stripling, by golly. I'm thankful you're not. I'm thankful both 
of you are here. We've got two of you.
    I'm going to exceed the five minutes just a little bit, but 
Dr. Stripling I want to ask you, what's the status of the think 
tank that you all are involved in with in UT-Dallas, Baylor, 
Princeton, and Texas State on replicating models like Morris?
    Dr. Stripling. Well, I'm glad you asked that question 
because the group is coming to Texarkana I believe next Friday. 
First of all, let me describe that. A couple years ago 
Texarkana I.S.D. leadership, representatives from A&M-
Texarkana, Princeton University, University of Texas-Dallas, 
Baylor University and Texas State Technical College started 
coming together, and really it is a tree think tank. That is 
the agenda each time.
    We first--well, I don't think I participated in the very 
first meeting, but we were in Waco one time. We were at TSTC at 
Baylor. The group came here last fall. The whole effort of this 
group is to think about, really as a think tank would, how we 
can replicate models similar to the collaboration here in 
Texarkana and other sides. I know Dr. Hensley is actually 
planning to have an Ohio Texas STEM meeting at the University 
of Texas-Dallas in mid-May, I believe. So, that's the status, 
we're moving along.
    Mr. Hall. Have you--are you familiar with the You Teach 
program at the University of Texas?
    Dr. Stripling. Yes, I am.
    Mr. Hall. Have y'all considered reaching out to them maybe 
to be a part of this think tank and the Texas A&M and the 
University of Texas work together on something together like 
that possibly?
    Dr. Stripling. I think we probably could. This is not a 
closed door group at all. We are willing to take anyone who is 
willing to jump in as a collaborative partner and work toward 
this end.
    Mr. Hall. Good. And I thank you. I want to ask Mr. Pickens 
a question.
    A lot of family, I guess many, many families across this 
country live in hope that their cures have eluded all of us for 
centuries. We more than hope. We have prayers. We also have one 
other thing. We have people and men and women that are doing 
research that are hammering for breakthroughs. I guess my 
question to you is, do we have any reason to believe that 
through your leadership at SPACEHAB and after listening to your 
wonderful speech at noon today, is there hope for those of us 
who have diabetes, Alzheimer's, cancer, Lou Gehrig's disease. I 
have in my family progressive super nuclear palsy for which 
there is no cure. Is there hope for us in the work you're doing 
at this time? If so, take the rest of my time and tell us about 
it because we want to hear that.
    Mr. Pickens. Congressman, I wish I had a whole day to talk 
about this. This is the most passionate thing I've ever run 
across in my life. When I got into SPACEHAB I was a board 
member, and I maneuvered myself as to become the CEO for just 
exactly the reason that you're pointing out.
    When I looked at it, SPACEHAB had been sending up science 
for 23 years on behalf of NASA and I saw five and a half 
billion dollars of money that had been spent through that whole 
process of sending science to space. When President Reagan in 
1984 first discussed with the Nation about the idea of building 
an international space nation, the intent and the desire at the 
time in a 1984 State of the Union address was to enhance and 
save lives on Earth. That International Space Station will be 
complete in two years. In the meantime, Congress has made sure 
that NASA has set science up in preparation for that date of 
completion of 2010 for the ISS and made them send things up to 
observe what it was like in microgravity and the differences 
that it would be like here on Earth.
    In that, the comparison ended up showing very definitely 
there is a lot of value. The value came in two big areas, and 
there are other areas. I apologize if I leave out some of those 
areas people feel passionate towards. But the one big area is 
vaccines. You can grow a vaccine in a petri dish here on Earth, 
and you can try and try and you can try for years and years and 
years and years and you'll never get anywhere. And yet, we just 
flew the salmonella vaccine that will end up enhancing and 
saving lives on Earth, just exactly what President Reagan 
intended in the very beginning, the stages of the ISS intended.
    The other area is what's called protein crystal growth. I 
won't go into what all that means, but it's a very complex 
system of how you develop a drug that will treat something that 
is as sinister and is as hard to decipher as diabetes, 
Parkinson's, Lou Gehrig's, sickle cell anemia, you name it. 
That's the tough stuff. The things that we haven't solved, the 
things that we haven't gone any forward, nothing has happened 
if you think about it. What has really changed with millions 
and millions if not billions of dollars that have been spent in 
those areas of drug discovery that we can really point to? 
Nothing. There are some treatments on the edges of making 
people feel--I think Parkinson's has had some advancements 
lately, but it's really kind of slowed it down; hasn't really 
treated it. In space they find out that they can do that.
    Now, NASA has been building space stations. They have been 
also doing some science. I give the analogy that to do an 
experiment in space up to now while they were building the 
station was like doing open heart surgery on the back of a 
bulldozer in the middle of a construction site building a sky 
scraper. If you went into a construction engineer and said I'm 
going to go do some open heart surgery in your construction 
site he would tell you that you're crazy. And that's where 
we've been doing science today. They have done a pretty good 
job of it though, and they found out that there was a lot of 
opportunity for value to bring down and enhance and save lives 
on Earth, but it wasn't in the right type of atmosphere and the 
right type of conditions to really get the best you could 
possibly get so I think that's where we're headed in SPACEHAB 
is to go off and develop those and discover those. And I think 
there is a huge amount of opportunity in those areas, 
Congressman.
    Mr. Hall. I thank you. My time's up, or I would have a 
follow-up for you. Mr. Chairman, do you have--go for it.
    Chairman Gordon. I just have one quick question for Mr. 
Pickens. You have become involved through STEM education 
through your STARS program. Any lessons learned there you want 
to share with us?
    Mr. Pickens. The STARS program is where we involve children 
from all over the world. As a matter of fact, mostly from the 
United States to send experiments up in our SPACEHAB science 
modules. They're no longer flying the science modules any 
longer. With the construction of the International Space 
Station being the primary importance of the Shuttles right now, 
there is no room.
    There is discussion, however, that they would extend 
flights of the Shuttle that would include the science module, 
and I would encourage that because that is waiting. There are 
lots of kids with experience who were approved by NASA. They 
are ready to fly and they are very, very interested in doing 
that. It really brings the kids into the game.
    I was watching on the ISS the other day where they had a 
microphone and they were talking to some of the astronauts up 
there to the students down on the ground, and it was great, and 
it was fine, but if they had experiments up there, that would 
be really, really great. If they had had robotics up there that 
they control on the International Space Station with cameras on 
it, that would be incredibly great. That's where we need to go 
with this ISS facility that we've spent a hundred billion 
dollars on.
    Chairman Gordon. Thank you. If you'll back the balance of 
my time.
    Mr. Hall. Mr. Ross.
    Mr. Ross. Dr. Marrett, thank you for joining us here today. 
Do you believe that we're doing a good job of getting 
resources? Mr. Smedley talked about hands-on materials to work 
with the students. I know NSF has some programs where they can 
provide materials, grants for equipment. Are we doing as good a 
job as we should be, or what should we be doing different to 
try and get those materials and those grant opportunities out 
and to the public schools and get more math and science 
teachers aware that they exist?
    I know I came back inspired by some of the work NSF was 
doing at the South Pole, and I put together a package to send 
to science teachers in my district, but are we doing a good 
enough job of getting that information and that knowledge from 
Washington to the school districts across the country to try to 
help grow a new generation of mathematicians and scientist? 
What could we be doing differently?
    Dr. Marrett. Our answer in terms of are we doing enough is 
no, we're not. I do have some ideas about some other things 
that we should be undertaking and undertaking collectively. 
It's not just the National Science Foundation.
    We're working collaboratively with other federal agencies. 
We need to be a much stronger connection with a number of 
foundations and other places. We're working with all of these 
institutions. I do want to thank you, however, for your 
comments that you made about the experiences at the South Pole. 
As you know, the National Science Foundation operates the set 
of activities in Antarctica, and we've seen what a difference 
it makes as students learn a lot about what's taking place on 
the continent that few people know very much about.
    Let me illustrate with a little side story. There is a 
teacher from Harlem who will be going in the next season to 
Antarctica. She describes what this has meant to her students 
in her middle school science class. They began to have a great 
deal more interest in questions about climate, questions about 
what the world is like because they suddenly had a connection 
with someone who would be pursuing the topics of interest to 
them, generating that kind of interest. We found what that kind 
of activity can mean. I just want to thank you for bringing 
this possibility to our attention, by your reference to the 
South Pole.
    In terms of the kinds of activities where other resources 
can be developed, within the National Science Foundation, we're 
really working more to see how to bring the activities 
together. I happen to be in charge of the Directorate for 
Education and Human Resources. There are seven other 
directories that are very much concerned with developments in 
the disciplinary areas. Everyone of the Directorates has 
education programs, outreach programs, and often are looking 
for effective ways to work with schools, to work with museums. 
Our task then becomes to work in collaborative ways so that 
we've got some cohesive materials and ideas that we can share, 
but we also have to listen to know what are the contextual 
conditions. A key question: What are the circumstances under 
which materials and ideas can be used most effectively?
    I want to thank the panelist and Mr. Smedley in particular 
for drawing attention to how whatever we do it will have to be 
in the context of the real world in which teachers, students 
and others are operating.
    Chairman Gordon. Mike, if you would yield just a quick 
moment. The Science and Technology Committee has voted our 
website is the best website in the House of Representatives as 
well as the Senate. One thing we tried to do there is put in 
links to NASA, to NSF, to every group that we could where we 
could find lesson plans, we could find any type of a link to 
education from all levels. So, I would suggest that those of 
you in administrative positions and elsewhere communicate that. 
And it's is www.science.house.gov. It really is a central 
location for a lot of information.
    Mr. Hall. Thank you.
    Mr. Leherr, let me ask you this question. We're interested 
in youngsters here today obviously. That's what this is all 
about. You're with Alcoa. You all do have intern opportunities 
for high school students, do you not?
    Mr. Leherr. Currently no, we don't. We're not allowed to 
employ folks under the age of 18. We do have intern 
opportunities though for college age.
    Mr. Hall. Would you offer local scholarships to students 
who were interested in studies that might fit your company or 
might be good students to work for your company upon finishing 
internship and then getting their education here at Texas A&M-
Texarkana?
    Mr. Leherr. Congressman Hall, you're putting me on the 
spot, but I think definitely smart business leaders here----
    Mr. Hall. Chamber of Commerce told me to put that last 
part.
    Mr. Leherr. I think smart business leaders would not only 
offer scholarships and internships and be part of the 
university and the STEM education. Obviously, somebody that 
employs a lot of engineers, I think there is one football coach 
that has a bunch of blue chips year after year.
    Mr. Hall. I thank you. I have one other question for--if 
Mr. Chairman will allow me--to Mr. Russell.
    Mr. Russell, we were worried about students who get well-
rounded education not going into math and science. That's 
across the country, that's the fear. Everybody's talking about 
it. We're trying to encourage them, tell them how wonderful it 
is and try to get them in there.
    Now, you all have gone to great extents to entice them, and 
you've enticed them. Now, that you've got them, how do you 
ensure that the students at Morriss Elementary are receiving a 
quality, well-rounded education incorporating non-science and 
math subjects where they won't be math and science nerds? Is 
there any better way to ask it?
    Mr. Russell. No. That is an excellent way. In fact, Ms. 
Morriss asked that question before she would allow us to put 
her name on the building and we had to beg her to allow her to 
do that, because she has quite a passion in the fine arts and 
again would not allow her name on a building that did not take 
great strides to do that. If you will look at the stage that 
you're sitting on right now and all the lights and the sound 
equipment, if I could talk all of you into coming back to the 
next program of the students here in the fine arts you would 
see that that is very important here.
    It's just more of a flare that we may in some of the 
programs that the kids are putting on, the dramas, the plays, 
the musicals, you may see a science and engineering flare to 
it, but all those programs are so important, especially at the 
early ages. As you heard, we're taking our academy approach to 
sixth grade at the middle school next year then moving up. All 
of the academies are designed to where if you don't like the 
science and engineering this year, the health science or the 
fine arts or leadership you can switch to next and still be on 
line.
    The math will be one of the toughest ones because we are 
advancing our math courses to where you will actually be ready 
for calculus by 11th grade so you can have Dr. Green's 
engineering classes in 12th. We're really designing everything 
all the way Pre-K through 16. So as the kids' interest change 
they can flow between academies and still be okay. So, while we 
are concentrating more and have much more of a flare, it's not 
at age five you're all of a sudden deciding what you want to be 
at 23 and you're locked in and hurt and not well rounded 
otherwise.
    Mr. Hall. Okay. I thank you. Do you have other questions 
Mr. Ross or Mr. Chairman?
    Chairman Gordon. Mr. Hall, I just want to thank you for 
pulling this hearing together. It's been very informative for 
all of us. I thank Texarkana, both Texas and Arkansas for the 
hospitality you have shown us while we've been here. Hopefully 
we can take back some of these lessons learned and help other 
communities.
    Mr. Hall. I want to thank everyone, all the witnesses who 
testified before the Committee today. This has been a highly 
educational hearing for everyone here. Our witnesses have given 
this community a lot to consider. I also would like to once 
again thank the Committee Chairman Mr. Gordon for making the 
trip to Texas, and to Mr. Ross for joining us on this side of 
town. We all have gratitude for Marjorie Chandler, my office 
and my district staff, and Tina Veal Gooch with the Texarkana 
Independent School District for all of her hard work, and Bess 
Caughran for accompanying the Chairman here and keeping his 
books straight and writing out questions and intelligent things 
for him to say.
    So, if there is no objection, the record will remain open 
for additional statements from the Members and for answers to 
any follow-up questions. The Committee may ask of the witnesses 
without objection. It is flat so ordered. Hearing is now 
adjourned.
    May I have one exception. If you'll all sit back down I 
just want to ask you to do one thing. I'd like for you two 
folks to stand up back there. Josh and Martha, please stand up.
    [Whereupon, at 2:53 p.m., the Committee was adjourned.]



                      <all>
</pre></body></html>
